<html>
<title> - CAMBODIA: POST ELECTIONS AND U.S. POLICY OPTIONS</title>
<body><pre>[Senate Hearing 105-846]
[From the U.S. Government Printing Office]


52-952 CC

1998

                                                        S. Hrg. 105-846


 
                      CAMBODIA: POST ELECTIONS AND
                          U.S. POLICY OPTIONS

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON EAST ASIAN
                          AND PACIFIC AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 2, 1998

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate




                    U.S. GOVERNMENT PRINTING OFFICE                    
52-952                     WASHINGTON : 1998


                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
CRAIG THOMAS, Wyoming                CHARLES S. ROBB, Virginia
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
JOHN ASHCROFT, Missouri              DIANNE FEINSTEIN, California
BILL FRIST, Tennessee                PAUL D. WELLSTONE, Minnesota
SAM BROWNBACK, Kansas
                     James W. Nance, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

             SUBCOMMITTEE ON EAST ASIAN AND PACIFIC AFFAIRS

                    CRAIG THOMAS, Wyoming, Chairman
BILL FRIST, Tennessee                JOHN KERRY, Massachusetts
RICHARD G. LUGAR, Indiana            CHARLES S. ROBB, Virginia
PAUL COVERDELL, Georgia              RUSSELL D. FEINGOLD, Wisconsin
CHUCK HAGEL, Nebraska                DIANNE FEINSTEIN, California

                                  (ii)






                            C O N T E N T S

                              ----------                              
                                                                   Page

Brown, Frederick Z., Professor, School of Advanced International 
  Studies........................................................    27
    Prepared statement...........................................    29

Craner, Lorne W., President, International Republican Institute..    20
    Prepared statement...........................................    23

Roth, Hon. Stanley O., Assistant Secretary of State for East 
  Asian and Pacific Affairs......................................     2
    Prepared statement...........................................     5

Tith, Dr. Naranhkiri, Chairman, World Cambodian Congress.........    12
    Prepared statement...........................................    14

             Additional Material Submitted to the Committee

Statement Submitted by Sam Rainsy, President, Sam Rainsy Party, 
  Cambodia.......................................................    36

Letter Submitted by Prince Norodom Ranariddh.....................    37

Statement Submitted by Human Rights Watch, Asia Division.........    38

                                 (iii)




            CAMBODIA: POST ELECTIONS AND U.S.POLICY OPTIONS

                              ----------                              


                        FRIDAY, OCTOBER 2, 1998

                               U.S. Senate,
                    Committee on Foreign Relations,
            Subcommittee on East Asian and Pacific Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Craig Thomas, 
chairman of the subcommittee, presiding. Present: Senators 
Thomas and Robb.
    Senator Thomas. Call the committee to order, please. We are 
delighted to have you here. This is a hearing that we had 
scheduled sometime ago, as a matter of fact, and it has sort of 
been set back. But I think it is still very appropriate to do 
that. I will try to keep my comments brief.
    By the way, we may have a vote at 10:30 or shortly 
thereafter. So we will have to work that out.
    With the economies of countries like Thailand and Indonesia 
crumbling over the summer, the spotlight, of course, has 
understandably focused on areas other than Cambodia. It was 
focused pretty much there during the election process, which 
began in May.
    The first elections after the Hun Sen-led coup have come 
and gone. And, not surprisingly, the outcome is still in 
dispute. While international observers initially reported a few 
irregularities, the supporters of the contestants, Ranariddh 
and Rainsy, alleged widespread fraud and have refused to join 
the government and work out the problems there.
    I am interested in discovering which of these two points of 
view is closest to reality, and, most important, I guess, what 
the U.S. reaction to the elections has been, and more 
importantly, how we deal and our formulation of our policy with 
Cambodia in the future.
    We had formulated a policy based, of course, on the--we 
need to formulate one based on the elections. We had had one 
somewhat based on the 1997 coup there in Cambodia. We had had 
one somewhat based perhaps on some of the bombings and the 
rallies. And now there have been allegations, at least, of 
attacks by Hun Sen and others.
    So that is kind of where we are. Before we begin, I would 
like to clear up one point for the record regarding an 
individual who requested the opportunity to appear at this 
morning's hearing.
    It has been the practice of this committee not to allow 
foreign nationals to testify before us, especially regarding 
internal political matters. The reasoning behind this exclusion 
is to avoid the appearance that the committee, and by extension 
the Senate, favors one political faction over another.
    I believe the committee's practice is in most cases a wise 
one. And as chairman, I have closely adhered to it. It was for 
that reason and for that reason that I decided not to accept 
the request of other panelists to appear this morning.
    OK. This is likely to be our last hearing in the 105th 
Congress. And I would like to take this opportunity to say to 
Senator Kerry, who is not here yet, it has been a pleasure to 
work with him and his staff.
    Mr. Secretary, it has been a pleasure to work with you, as 
well. And I have been very appreciative of your willingness to 
come, not only for hearings, but to come and visit with us on 
other occasions. I think it is important that we stay in touch, 
and you have certainly worked very hard to do that. And I 
appreciate it. So welcome. And if you would like to go ahead, 
sir.

STATEMENT OF HON. STANLEY O. ROTH, ASSISTANT SECRETARY OF STATE 
               FOR EAST ASIAN AND PACIFIC AFFAIRS

    Mr. Roth. Thank you very much, Mr. Chairman. And let me say 
first that the sentiments are reciprocated. I think you have 
set a standard for working on foreign policy issues in a 
bipartisan or even nonpartisan fashion, and I have appreciated 
the opportunity to work with you.
    Furthermore, I want to commend you and subcommittee for 
holding this hearing. With all the issues going on Asia right 
now, the financial crisis, Japan's economic situation, the 
North Korean troubles, Indonesia, it is all too easy to lose 
track of Cambodia.
    But you and the subcommittee, I think, have been amongst 
the leaders in following events all the way through on that 
process. And so I welcome this opportunity to really continue a 
dialog that we have had continuously since my confirmation.
    I do not want to take a lot of your time going over the 
events prior to the election. I did testify in June, and I 
think you are aware of the progress that had been made up to 
that point through U.S. policy and working with the ASEAN 
troika in terms of getting opposition leaders back into the 
country, getting electoral laws passed and setting the stage 
for the election itself. But let me review events since the 
election.
    First, to start with the good news, I think that is well 
know. The fact that the conduct of the election on the election 
day itself went much better than almost anyone had expected, 
the fact that 90 percent of the people turned out, the fact 
that it was quite peaceful, and the fact that the opposition 
got almost 60 percent of the votes, I think suggests that in 
fact efforts that I think we could argue were clear to try to 
harass, intimidate and coerce the voters in one direction 
failed.
    This is a key point, because I think you will receive 
testimony later from at least one witness suggesting that the 
election was fundamentally flawed. And I think here--I hate to 
get into semantics with you, but I think rather to deal with it 
at the level of concept, nobody in the administration believes 
that the election was not flawed. Obviously it was flawed.
    There was not access to the media. And worse, there were 
killings of opposition figures. There was clear harassment. 
There was clear intimidation. So of course it was flawed.
    The question is: Was it fundamentally flawed? So much so 
that we need to cast the results out? And here, one of my 
differences with the IRI is that despite all the problems, I 
think the answer is: When 90 percent of the people turn out and 
the opposition gets an overwhelming majority of the vote, I do 
not see how you can say that the campaign was fundamentally 
flaw.
    In fact, I think you can say that the attempts at 
harassment failed. So I think in that sense, that is the 
difference that we have, not that we are in any way trying to 
whitewash how the election was conducted or to say that should 
be a standard by which elections should be measured. This was a 
terrible electoral campaign. But we still think that the 
results have given us something to work with, given the margin, 
the 60 percent that the opposition got.
    The question is: Where do we go from here? And I think that 
the real problem has been trying to get a government coalition 
put together that reflects the results of the election, 
meaning, one that gives the opposition a meaningful role 
reflecting the fact that they did get almost 60 percent of the 
vote, but, two, also acknowledges the reality that Hun Sen got 
the largest plurality.
    And there is a very painful reality, Mr. Chairman, that I 
think needs to be discussed, which is, had the opposition 
united prior to the election, had Rainsy, Ranariddh and some of 
the splinter parties not divided, they would not be in the 
position they are in now, where they do not have the largest 
plurality.
    But the splintering of the opposition vote has resulted in 
the situation we are in today, and that is just a painful 
truth, that Hun Sen has the largest plurality and therefore is 
going to have to be a major factor in coalition negotiations.
    At the same time, let me be absolutely clear. This is not 
praise for how Hun Sen has conducted himself either before, 
during or after the election. It is very clear that the offer 
that Hun Sen made after the election did not constitute a 
serious offer of power sharing. He made an offer that basically 
would allow him and his party to keep every major ministry, 
and, if you will allow me to exaggerate only slightly, 
essentially reduce the opposition to positions with the 
significance of dog catcher.
    And so I think that that was not a legitimate offer. And it 
is no wonder that the opposition refused to embrace that offer. 
Clearly, it is not the policy of the administration to force 
the opposition leaders to enter into a coalition agreement in 
which they have no meaningful role. I emphasize that 
emphatically, because some people have wrongly tried to 
characterize our policy in that regard.
    What we would like to see is the opposition to enter into 
coalition negotiations in which there would be a meaningful 
role. And I think it is quite clear that the opposition is not 
without significant leverage. It is not without significant 
leverage because Hun Sen cannot form a constitutional 
government without the support of FUNCINPEC and Ranariddh's 
party. He does not have the votes.
    So if he wants to have a legitimate government, he needs 
the opposition's help. That should be the basis for a 
negotiation. The precise outcome of that negotiation, I think, 
should be between the parties. I could foresee many different 
outcomes, ranging from different sharings of portfolios to 
different electoral formulas for the national assembly. That is 
for the Cambodians to decide. But there has to be some genuine 
arrangement for power sharing.
    What have we done to try to promote this outcome? First, we 
have, unlike some other countries, refused to simply endorse 
the results of the election. We did not say, as some other 
countries unfortunately did, terrific election, let us get on 
with it, Hun Sen won, he should form the government, let us 
move on.
    We have stood by our principle that there has to be some 
outcome that reflects the opposition's role, given the fact 
that they got 60 percent of the vote. We did not do what ASEAN 
did. We did not do what Japan did. We have not tilted toward 
Hun Sen and just, with Cambodia fatigue, said, OK, good enough, 
let us check the box and go on to the next problem.
    We have used the existing sources of leverage that I have 
been discussing with you for all of the past year to ensure 
that continued pressured is put upon the regime to enter into 
coalition negotiations.
    You will notice, for example, that no one this year made an 
effort to give Hun Sen credentials at the General Assembly, a 
major change from last year, when the United States had to take 
a leadership effort in order to block Hun Sen's credentials.
    This year, everyone has recognized that until a coalition 
government is formed, or unless a coalition is formed, that he 
is not going to get credentials at the United Nations General 
Assembly.
    ASEAN has played a very responsible role. I hope you are 
aware that Secretary Albright took the lead last week at the 
General Assembly in organizing a meeting between ASEAN and the 
Friends of Cambodia to discuss the situation. This was the 
night before the ASEAN foreign ministers were meeting to 
discuss, amongst other issues, whether or not they were going 
to admit Cambodia this year.
    There is a December meeting in Hanoi, an annual summit of 
ASEAN meeting. And we believe that ASEAN made the correct 
decision, that it is not going to admit Cambodia until the 
issue of the government's coalition is resolved. So that 
important source of leverage, ASEAN membership, is maintained.
    Third, the United States has made it clear that we have no 
intention of resuming our aid, other than through 
nongovernmental organizations for humanitarian purposes. We are 
not going back to business as usual until the situation is 
resolved.
    So all three sources of leverage remain. The next question 
is: Will it work? I wish I could tell you we knew the answer to 
that question, but all I can tell you is that there is a 
chance.
    Belatedly, some of the other key international players have 
caught up to the United States and have now started exercising 
their influence in a productive fashion. We have seen the ASEAN 
countries, through Thailand, send a very productive mission to 
Cambodia, which led to the first meeting of the parties 
themselves under King Sihanouk's auspices on September 22.
    We have seen the convening of the national assembly. And we 
have seen the beginning of negotiations amongst the parties to 
see if they can work out a power-sharing arrangement. There was 
a followup meeting on the 29th. The next meeting is scheduled 
for October 5.
    Japan has supported this effort and has worked with King 
Sihanouk to try to get all the parties talking to each other. 
The United Nations has played a very positive role in trying to 
get all the parties talking to each other.
    So I think now the international community is playing a 
productive role in trying to get the outcome that we all want, 
which is a genuine coalition government, in which the 
opposition has a meaningful role.
    No guarantees, Mr. Chairman, that this will work. I know 
your own personal skepticism about this project based upon the 
outcome of the last election and the fact that we have the same 
cast of characters, the same players, that we had before. There 
are no guarantees that they will reach a coalition or, if they 
do, that it will work.
    But I ask: What are the alternatives? I think that the best 
chance we have is to build upon the results of an election that 
was internationally monitored, in which the opposition won a 
majority, to try to put together a genuine power-sharing 
arrangement and then to continue to exercise the leverage that 
we have, particularly aid leverage, to ensure that the 
coalition functions better than we did before.
    Why don't I stop at that point and open it for your 
questions?
    [The prepared statement of Secretary Roth follows:]

               Prepared Statement of Hon. Stanley O. Roth

    Mr. Chairman, thank you for this opportunity to address the 
subcommittee on the situation in Cambodia. That troubled country is 
once again at a critical juncture, so I appreciate this opportunity to 
update the subcommittee on recent developments and consult with you on 
how best to move forward.
    When I last testified on Cambodia before this subcommittee in June, 
progress had been made in moving Cambodia towards July elections. 
Opposition leaders were back in-country and operating freely; all 
political parties had been granted freedom to campaign; election and 
party laws had been passed; an election commission had been 
established; the requisite constitutional and magistracy councils had 
been set up; international observers had been invited to monitor the 
election process; and voter registration was in full swing. In short, a 
framework--albeit an imperfect one--was in place in Cambodia in which 
meaningful elections could be held.
    The United States, in concert with ASEAN and other partners, had 
worked hard to bring Cambodia to that point, pressing all parties to 
take steps to create the conditions for free, fair and credible 
elections. Despite progress achieved, however, two questions remained 
unanswered as Cambodia moved into the official campaign period. First, 
would opposition figures be granted media access for their campaigns? 
And second, would the climate of fear and intimidation which had 
prevailed since the bloody factional fighting of June 1997 persist?
    Despite the intense efforts of the international community, neither 
of these issues was ever adequately resolved. While the opposition had 
substantial access to print media for the purpose of their campaigns, 
TV and radio were essentially monopolized by the ruling CPP. And while 
the climate of political intimidation had eased from earlier months, 
the U.N. documented dozens of human rights abuses in the run-up to the 
vote, including beatings, arrests, and worst of all, extra judicial 
killings.
    As the July 26 election date drew near, these flaws threatened to 
invalidate the entire process. Many observers essentially wrote off the 
possibility of a free and fair election, and the international 
community braced for a worst-case scenario of violence and chaos on 
election day. Despite the widespread pessimism, however, Cambodians 
turned out in record numbers to cast their ballots, demonstrating both 
a deep desire for a voice in their future and their continued faith in 
the electoral process. Moreover, almost 16,000 domestic and 
international poll monitors on the ground concurred that barring one 
deadly attack by Khmer Rouge terrorists on poll officials, Cambodians 
cast their votes in an environment that was peaceful, orderly, and free 
from intimidation.
    The election results indicate that Cambodians indeed voted freely: 
some six out of ten voters chose a party other than the ruling 
Cambodian People's Party (CPP). It may be useful to note, Mr. Chairman, 
that had the opposition unified prior to the elections, they, and not 
Hun Sen's CPP, would have primary responsibility for forming a new 
government. Still, while in the end Hun Sen's CPP won a plurality of 
the vote, the fact that almost 60% of votes were cast for the 
opposition clearly demonstrates that efforts aimed at intimidating the 
Cambodian electorate failed.
    This was the good news of this election. Unfortunately, a conflict-
ridden post-election period has threatened to overshadow this 
achievement. After the July 26 vote, opposition figures raised charges 
of vote fraud and manipulation of the formula for apportioning 
parliamentary seats. While the NEC and the constitutional councils 
adjudicated some of the opposition's initial claims, these bodies 
summarily dismissed a substantial number of recount requests and 
refused to address the seat allotment controversy. It is true that 
initial recounts carried out by the NEC substantiated the original vote 
and proved many opposition allegations frivolous; still, wholesale 
rejection of the opposition's claims of irregularities is not a 
credible position, particularly in light of support for some of those 
claims by independent NGOs and observers.
    In abdicating their responsibility to resolve all post-election 
disputes, the Cambodian electoral authorities lost a major opportunity 
to strengthen the credibility of the election process and renew the 
Cambodian people's faith in their national institutions. Nonetheless, 
we must recognize that in the judgment of most international observers, 
proper completion of the recounts would not have significantly altered 
the outcome or deprived the CPP of its plurality. The limited recounts 
thus far conducted showed no substantial change in numbers, and a 
parallel vote conducted by the independent Cambodian NGO (COMFREL) 
which fielded over 15,000 poll watchers also tallied a clear CPP 
plurality.
Whither Cambodia?
    The obvious question, Mr. Chairman, is where do we go from here? 
Two things clearly need to happen if this electoral process is to be 
brought to closure and Cambodia is to get on with the urgent task of 
national reconstruction: legitimate electoral disputes must be 
appropriately adjudicated, and the parties must, pursuant to the 
provisions of the Cambodian constitution, negotiate a coalition 
government which reflects the will of the people as expressed through 
their vote. Hun Sen's initial attempts to form a government with the 
opposition were simply not acceptable, having offered only token 
appointments to the opposition while retaining all major ministries for 
the CPP. At the same time, the opposition's efforts to provoke a 
constitutional crisis by refusing to seat the Parliament by the 
September 24 deadline were counterproductive, serving only to escalate 
tensions and threaten instability.
    U.S. policy throughout this tumultuous post-election period has 
been clear and consistent: we have called for a thorough vetting of all 
legitimate electoral disputes by the bodies charged with such duties; 
negotiations toward a genuine power sharing arrangement; and restraint 
on the part of all parties lest Cambodia once again explode in chaos. 
Ambassador Quinn repeatedly stressed these points to both the 
government and the opposition in Phnom Penh and made numerous 
interventions with key government leaders in a largely successful 
effort to minimize violence and encourage restraint.
    Indeed, against a backdrop of escalating protests and increasingly 
provocative actions from all sides, Ambassador Quinn played a key role 
in averting even greater bloodshed, providing assistance to political 
leaders at risk and defusing explosive confrontations between the 
opposition and the police--many of which took place right in front of 
the American Embassy in Phnom Penh.
    The international community has also gotten involved. As it became 
clear that the electoral process was in danger of disintegrating into a 
violent, undemocratic outcome, various friends of Cambodia abandoned 
their initial reluctance to intervene and joined the United States in 
reengaging Cambodia. Japan, the U.N. and Thailand made multiple 
interventions with the King and other players--interventions which 
ultimately led to the successful meeting of the opposition and the CPP 
with King Sihanouk on September 22 and the convening of the National 
Assembly on September 24. These meetings helped to initiate a 
negotiating process that at least offers the possibility that a 
coalition government may be formed that reflects the election results.
    While the situation appears more hopeful than just a few weeks ago, 
Mr. Chairman, events are moving quickly and the future remains 
uncertain. We are thus working on a day-to-day basis to deal with 
threats--including those to the personal safety of opposition 
politicians--as they arise, while continuing to push our overall 
objective of a genuine power-sharing arrangement. Can the parties work 
out such an arrangement? And if they do, will it work?
    Unfortunately, Mr. Chairman, it's too early to tell. The relevant 
parties sat down together on September 29 and will meet again in the 
next few days to continue negotiations. Hun Sen, moreover, lifted the 
travel ban on most politicians, a fact evidenced by the recent arrival 
in Washington of opposition leader Sam Rainsy. Still, despite these 
encouraging signs, we simply don't know what lies ahead.
    Ultimately, only the Cambodians themselves can determine their own 
fate and future. Nonetheless, together with our like-minded 
international partners, we are making every effort to move this process 
forward. Last week, Secretary Albright used the occasion of the U.N. 
General Assembly to organize a meeting of interested parties to discuss 
the situation in Cambodia. I am pleased to report that this meeting 
produced an overwhelming consensus to both stay engaged in Cambodia and 
withhold U.N. credentials until a credible government is formed. In a 
separate meeting, the ASEAN foreign ministers affirmed their commitment 
to this approach, adding that ASEAN membership will be postponed until 
Cambodia's domestic situation is resolved.
    The next few days and weeks will be crucial. When and if a new 
government acceptable to the Cambodian people is formed, we will want 
to consult with the subcommittee on our long-term Cambodia policy, 
particularly as to what more we can do to address Cambodia's pressing 
humanitarian needs and strengthen its civil society. Let me conclude by 
saying, Mr. Chairman, that we appreciate the leadership the Congress 
and the Senate in particular have demonstrated on Cambodia throughout 
this tumultuous period. The recent letter to Hun Sen by Senators McCain 
and Kerry, urging Hun Sen to take responsible steps that will move the 
process of national reconciliation in Cambodia forward, is just one 
example of the many constructive efforts you and your colleagues have 
made. We thank you for your engagement and your leadership, and look 
forward to close and cooperative consultation with the subcommittee as 
events unfold.

    Senator Thomas. OK. Thank you.
    If you put it in terms of evaluating this election, would 
you say it is improved politically, or would you say it has 
produced free expression for the people of Cambodia? On a scale 
of 1 to 10 in those areas, how would you do that?
    Mr. Roth. Well, I would say that in terms of getting an 
expression of the people of Cambodia, it has a pretty high 
rating, because the opposition, despite all the efforts at 
intimidation, including all the way up the chain to murder, 
turned out. And the opposition got 60 percent of the vote. That 
seems a pretty good expression.
    At the same time, I want to be very careful, because in no 
way do I want to suggest that this was a terrific election 
campaign. This was an awful election campaign. The fact that 
opposition leaders were kept out of the country on ridiculous 
pretexts for so long and had to come back under curious 
circumstances, to say the least, the way the campaign was 
conducted, the murder of individuals, the failure to 
investigate these deaths, lack of access to the media, these 
are all awful circumstances under which to conduct an election.
    I think, in fact, one has to give extraordinary credit to 
the Cambodia people, who, despite all these circumstances that 
I have just described, turned out in extraordinary numbers and 
voted freely.
    Senator Thomas. Well, there seem to be some sort of mixed 
reports from the foreign observer groups. Some accuse the U.N.-
sponsored group of being predisposed to be favorable in that 
the Europeans and the ASEAN group wanted to move into normal 
relations. Some, who were there from here, the International 
Republican Institute, started out with a fairly favorable 
judgment and now I think has revised that view some.
    So what is your view of the foreign observer groups?
    Mr. Roth. Well, I think that, as I have tried to explain in 
my testimony itself, there is basically the difference between 
IRI and the administration's position and many of the other 
observer groups as one of judgment on that one specific issue, 
whether the problems before the election and after the election 
were sufficient to void the results of the entire election.
    And our judgment is no; their judgment is yes. And that is 
a judgment call. But I should point out that there are a lot of 
observers, including a very large number of Cambodian 
observers, including American finance and trained election 
observers. And their results are very similar to the results 
that came out of the electoral process itself. So that, you 
know, you have many observers, not just the U.N. or the 
Europeans or the Japanese saying that essentially the voting 
practices were OK.
    I think where the Cambodian government has massively failed 
was in simply dismissing carte blanche hundreds, if not 
thousands, of claims that were made afterwards, rather than 
adjudicating that in a more serious fashion.
    But I must say the initial results, based up by many 
observers on the ground, have been that those claims that have 
been investigated so far have not proved to be serious, or, in 
other words, that the original count has in most cases been 
justified.
    I am not trying to tell you that this was a perfect count, 
that there were no irregularities. I do not know an election 
anywhere in the world in which there were no irregularities. 
But we have yet to see sustained evidence that there were 
substantial irregularities in the vote counts themselves.
    But we do believe that the government made a mistake in not 
following the process provided for in their own election laws 
for adjudicating these claims and simply ruling out, I think it 
was, 8,000 different claims.
    Senator Thomas. I know this is fairly broad, but as you 
look around the world today, you look at some countries in 
Europe, Kosovo and others where people are being killed in 
large numbers, you look at Iraq or some others where security 
to the Middle East is threatened certainly, even North Korea 
and so on.
    What is our mission? What is our goal? Our goal there is 
pretty clear, to stop killing, to do something about the threat 
to security and so on. What is our mission in Cambodia?
    Mr. Roth. I think our mission has been to try to basically 
get the Paris Accords from the beginning of this decade 
implemented, which is a Cambodia which, as a result of free and 
fair elections, would have a democratic government that will 
then go about trying to meet the needs of the Cambodian people, 
which are formidable.
    That is a hell of a job, and we are doing it against a very 
difficult deck, given the fact that, unlike in the early 
nineties, we do not at this point have some of the assets that 
were available.
    As you know from previous hearings, there was no sentiment 
for an ASEAN peacekeeping force. There was no sentiment for a 
U.N. peacekeeping force. There was no sentiment for an American 
peacekeeping force. And so we did not have the circumstances we 
did in the earlier election, when we had a significant UNTAC 
Force to preserve order and prevent some of the abuses that 
occurred this time.
    But working within the parameters of the situation that we 
did face, I think our goal was to provide circumstances first, 
get the opposition back into the country and safe so they could 
run, that happened; to get election laws that would allow for 
the conduct of an internationally sanctioned election, that 
happened; to make sure that there was minimal violence on 
election day, that happened.
    And now we are at the most difficult phase. With all of 
that done, can we make it meaningful, meaning can we get the 
outcome of the election reflected in the government? All of it 
will be for naught. I am not here to tell you that we are so 
pleased with what happened before, that now we are going to go 
with any government that comes along.
    The question is: Can we now, having gotten these steps 
done, get a government that reflects what I have told, a 
democratic government that we could support, that the rest of 
the international community could support?
    Senator Thomas. So that really is the implementation of the 
Paris Accords, a democratic government that we can support.
    Mr. Roth. Yes.
    Senator Thomas. That is the mission, in short.
    Mr. Roth. Yes.
    Senator Thomas. What do you think the Clinton 
administration's approach will be in the aftermath? Will we--I 
think you already mentioned this, but will we go back to 
restoring U.S. aid to Cambodia as it was before 1997? And if 
not, what are the conditions in which that would be considered?
    Mr. Roth. Right. Well, without by any means trying to 
flatter you, I think you will have a large say in that 
decision.
    Our current intention is not to resume aid through the 
government and through any means to do business as usual, 
unless and until we are satisfied that, in fact, there is a 
government formed that reflects the outcome of the elections. 
In other words, a meaningful role for the opposition.
    That if this process breaks down, Hun Sen forms an extra 
constitutional government, we do not presently envision seeking 
resumption of aid, other than humanitarian aid through NGO's, 
provided we have continued support for that with the Congress.
    Senator Thomas. How would you advise, or would you advise, 
Prince Ranariddh and Rainsy to negotiate a coalition, or would 
you?
    Mr. Roth. Yes. I think that they have a significant amount 
of leverage, because in fact they have almost 60 percent of the 
votes, and that therefore their ability to secure a coalition 
government in which they have a meaningful role is quite high.
    Hun Sen has been denied things he wants, and he knows he is 
not going to necessarily get them unless he has this kind of 
legitimate outcome. Like he did not get ASEAN membership, which 
he might have thought he was going to get 2 months ago. He did 
not get U.N. General Assembly seats, which he might have 
thought after election day he was going to get.
    I think he has had as clear a statement as I can make today 
that he is not going to get U.S. aid, if we do not get a decent 
outcome. So I think that the opposition goes to these 
negotiations, not from a point of weakness, but from a point of 
strings in terms of bargaining for a legitimate role in the 
government.
    Senator Thomas. I think you mentioned, and I was not sure 
what you said, how will the administration react to moves to 
have Cambodia reconsidered for admission to ASEAN and occupy 
the Cambodian seat in the U.N.?
    Mr. Roth. I thought I addressed both, but let me make it as 
clear as I can. First of all, we are delighted with the ASEAN 
foreign minister's decision not to offer admission at this 
point to Cambodia. They are waiting to see if----
    Senator Thomas. I think at this point is the key.
    Mr. Roth. Yes. Well, there is no indication that ASEAN has 
any intention of admitting a non-constitutional, i.e., Hun Sen, 
government without--if there is no agreement.
    I think they are fully aware that they are just inviting 
more trouble for ASEAN if they let an unstable country in with 
a government that is not recognized internationally. I do not 
think there is any difference between us and ASEAN at this 
point, and I am very pleased about that.
    On General Assembly, we are steadfastly opposed to the 
credentials until there is a government that meets a legitimacy 
test. And there was no effort last week--I emphasize none--for 
anybody to challenge that.
    Senator Thomas. The papers mentioned this week, I think, 
alleged assassination attempts against Hun Sen. There have been 
attempts, of course, against others.
    Specifically, what can you tell us about an incident where 
the wife of Nate Therer, a correspondent for the Far East 
Economic Review, was accosted and apparently shot at? He 
believe apparently that it was politically motivated. Do you 
have any information on that?
    Mr. Roth. We have been in constant contact, both with Mr. 
Therer and with her. Let me state first in terms of what we 
have done is that we have expressed our concern immediately at 
the cabinet level in Cambodia, because we were not sure whether 
this was political or not. But we did not want to take any 
chances.
    So Ambassador Quinn made an immediate representation about 
this as a very threatening development and made an immediate 
representation to the police chief in Phnom Penh as well. In 
addition to that, we offered her an escort to the airport so 
that she could get out of the country, which was her wish. She 
actually has left Cambodia and is physically safe. She declined 
the U.S. embassy escort to the airport. I am not sure why.
    But we have taken this issue extremely seriously in terms 
of providing for her protection. In terms of the actual facts 
of the case, they are, unfortunately, like many in Cambodia, 
confused. We do not know yet what happened. Some people say 
there was a shot; some say there was not. Some say it was a 
robbery; some say it was politically motivated.
    I wish I knew. We are making every effort. One frequently 
does not find out in these cases what happened. But obviously, 
we have made every effort to provide for her personal safety.
    Senator Thomas. What is the status, if there is one. Of the 
FBI's investigation of 1997 rally. As you know, there were 
thoughts and allegations that the embassy there had sort of 
called off the FBI. And the report delivered to Congress in 
April is inconclusive.
    Mr. Roth. Right.
    Senator Thomas. Relative to some of these other things that 
are happening here, what is the situation with the FBI?
    Mr. Roth. Well, I do not believe anything has progressed 
significantly in recent days. There is a report, which is 
before the committee. I assume you have looked at it. But as 
you say, it is inconclusive.
    The question is: After we put together, if we put together, 
an acceptable coalition government in Phnom Penh, I think what 
of the tests of its credibility will be how does it investigate 
all these past abuses? This attack, other murders that have 
taken place during the campaign, since the campaign. There are 
going to have to be investigations of a lot of actions, 
including this.
    I would hope there would be circumstances where this 
investigation could be pursued vigorously within the country 
itself that witnesses would feel safe to come forward. But we 
are going to have to see first what happens with the 
government.
    Senator Thomas. I presume you would not agree to the 
allegation that the embassy was a party to slowing down or 
prohibiting that investigation.
    Mr. Roth. That is absolutely not true. I have had numerous 
conversations with Ken Quinn about the chronology of this. I 
think our main concerns have been to make sure that the FBI 
team was safe, you know, in terms of coming in there. And 
second, that witnesses who wanted to talk to them were safe 
under very difficult circumstances.
    But there is absolutely not intention whatsoever to 
suppress the information or the investigation. I would like to 
see it resumed, if it could be done.
    Senator Thomas. As we review, do you think the embassy's 
starting to have communications with Hun Sen early last year 
after the coup was a reasonable thing to do?
    Mr. Roth. I think the role of the embassy there is to be 
talking to everybody. And I think there is an unfair impression 
out there that somehow Ambassador Quinn has tilted toward Hun 
Sen and is not talking to all the other parties.
    In fact, he was the only Ambassador that came to the 
airport to see Ranariddh the second time he came back to the 
country. Ranariddh chose to get his house on the same block, if 
not across the street, from the U.S. embassy. He has been in 
constant contact with all the opposition officials as well.
    Part of what we want him to do is to be able to communicate 
messages to Hun Sen, including protests that we make when we 
have concerns about all kinds of issues. And one of the things 
I regret is that in recent weeks, Hun Sen has stopped receiving 
all Ambassadors, not just ours, but Japanese, ASEAN, U.N. 
officials.
    And instead, we have had to deal with cabinet officials 
instead of Hun Sen directly. But I think that is part of Ken 
Quinn's job is to be able to deal with him, as well as 
everybody else.
    Senator Thomas. Well, it is a difficult thing. There is no 
question about it. I presume, at least from a lay person's 
point of view, the most difficult thing is to not tell them 
what to do, that is not our role, but at what point we continue 
to do the things that we may have done in the past or would 
hope to do in the future, and that their activities and 
behavior are such that we can continue to do that. And I 
presume that is the question before us for the large part.
    So thank you very much, Mr. Secretary. Appreciate it. And 
we will stay in touch.
    All right. Let us go on to our second panel then, please.
    Dr. Tith is Chairman of the World Cambodian Congress in 
Washington, and I think also a professor at college. Mr. 
Craner, President, International Republican Institute in 
Washington. Frederick Brown, professor of Advanced 
International Studies at Johns Hopkins.
    Gentlemen, thank you. We appreciate your being here. Your 
statements will all be included in the complete statements in 
the record. So if you would care to summarize and make your 
major points, that would be very good.
    We will go as listed here. So Dr. Tith, if you would begin, 
please.

  STATEMENT OF DR. NARANHKIRI TITH, CHAIRMAN, WORLD CAMBODIAN 
                            CONGRESS

    Dr. Tith. Thank you, Mr. Chairman. I am greatly honored to 
be here today to testify in front your committee. I am very 
grateful to you also, in spite of all the problem in Asia and 
in the world, you still have time to give to Cambodia some 
thought. I appreciate that very much.
    I have written a paper, looking from the long-term point of 
view underlying factors, hopefully that will serve for the 
purpose of a proactive policy, not a reactive policy. My paper 
is entitled A Long Term and Integrated Look at the Cambodian 
Crisis: Some Suggestions for a Possible Solution.
    Let me summarize it, first by stating that in my opinion 
from almost 40 years of observing the Cambodian situation, and 
particularly recently knowing all the actors, including King 
Sihanouk and the political situation activities in Cambodia, 
and particularly observing the recent election, I have come to 
the conclusion that the election is neither free nor fair.
    And the reason is that we should not take out at one 
particular point in time, particularly during the election, and 
Hun Sen is too smart, particularly the advice from certain 
countries, that he has to behave during the election days. And 
we take that out and do not look at before and then after. And 
then we say that it is reasonable, fair and so forth, free.
    In my opinion, we have to look backward a little bit and 
then forward what is going to happen. If you look backward 
since the UNTAC intervention in Cambodia, there is a pattern, 
definitely a pattern, deliberate pattern, by Hun Sen to derail 
the United Nation effort in Cambodia.
    And that is backed up by the recent declaration by two 
former United Nations officials that were involved in Cambodia 
during the 1992/1993 election organization, General Sanderson 
and Mr. Maley. General Sanderson was the commander in chief of 
the United Nations forces in Cambodia.
    In his testimony to the parliament of Australia, he said 
that there was definitely a deliberate pattern since 1991 by 
Hun Sen to derail the United Nations UNTAC in Cambodia.
    And we can observe that since the election--in 1993 Hun Sen 
lost that election--but he bullied himself back into the 
government by blackmailing, by having a secession of seven 
provinces in Cambodia, then he was brought back into the 
government and created these two heads of government, two prime 
ministers, at the suggestion of King Sihanouk.
    You have to know the story behind that scene, and I know 
very well. If you have to have more details, I can talk about 
that. I have heard the king was definitely implicated in that 
secession of the seven provinces in 1993.
    And again, the king supported Hun Sen, sided with Hun Sen, 
as he has sided with the Khmer Rouge before. So the king is no 
longer a neutral party in any negotiations in the future of 
Cambodia. I am sorry to say that, but I know him very well. And 
I have been following his action, and it has to be said.
    Having said that, if you look at the election day, of 
course it looks reasonable, because there was nobody killed. 
But who can tell, with 500 people only from foreign observer? 
Granted there are some people on the Cambodian side, observers.
    But who can tell when all the administration, with either 
provincial village level all controlled by the CPP or Hun Sen? 
At nighttime, like the French say, at nighttime all the cats 
are black. We cannot distinguish.
    So Hun Sen definitely has all the support he wants to in 
order to derail the election. Having said that, the result of 
the election, as Mr. Roth has said, spoke clearly of the will 
of the Cambodian people for change. That is, Hun Sen got only 
about 41.5 percent, and 58.5 percent obtained by the 
opposition. And that in itself clearly said that it is the will 
of the people that want to change, they do not want Hun Sen.
    But Hun Sen, again after the election, tried to force the 
opposition into the coalition, again with the support of the 
king. I do not think this should be done, because as the last 
coalition, it did not work, because Hun Sen did not want it to 
work.
    But the only difference this time, Mr. Chairman, is that 
Cambodia is no longer the country that it used to be 5 years 
ago. One major difference is that in Cambodia in 2 years time, 
according to two important independent global witness, who 
observed the deforestation in Cambodia, in 2 years time, there 
were no more forests left in Cambodia.
    So what does it translate into operationally for the 
Cambodian people? It means that in 2 years time the Cambodian 
people will have at least, at least a majority of the Cambodian 
people, 80 percent of them, that live on the countryside, live 
on fishing, on forestry, on rice growing, they will have no 
more means to live on.
    And if you want to have an indication as to the devastation 
of that kind of ecological imbalances or destruction, look at 
China. Even the government of China has admitted that 
deforestation has caused a tremendous flood in China, and still 
causing it. So in Cambodia, there will be much worse than that.
    So what you will have in 2 years's time, you will have a 
lot of people starving to death, millions. And I know Cambodia, 
I know many other countries. I know economic management, being 
my profession. Hun Sen has no way to manage the country, 
because he is the problem. He is the one that create all those 
problem.
    He is born of a culture of violence and a culture of 
corruption. And his system is based on pervasive corruption. He 
cannot have the support of the generals and of all the people 
in the villages, if he does not pay them, if he does not 
corrupt them.
    So that is the picture. Now what are we going to do in 2 
years' time, when the people of Cambodia will drop dead like 
flies? 1 million, 2 million more? Maybe by that time we will 
see that Cambodia does have a real crisis.
    And who are the one that really create that crisis? It is 
Hun Sen. Hun Sen is not a leader. He is a murderer. He is a 
killer with sadistic inclinations.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Tith follows:]

               Prepared Statement of Dr. Naranhkiri Tith

    I am very grateful to you Mr. Chairman for convening this hearing 
at this critical time in the post election situation in Cambodia. I am 
fully aware that you are all busy with the many critical problems in 
the world today such as the Asian financial crisis and the Russian 
economic and political crisis which are having a contagious and 
negative impact on the US economy and that of the world. This hearing 
shows once again that the US Congress continues to be sincerely 
concerned about the plight of all oppressed people in the world, 
including the Cambodian people. This hearing is only one of the many 
that this committee under your chairmanship has frequently been holding 
on the situation in Cambodia during the past few years. I thank you.
    I am deeply thankful to you and your colleagues for having made 
possible to have an independent Cambodian voice to discuss and analyze 
as honestly and straightforwardly as I can, the quickly deteriorating 
economic, political, and social situation in Cambodia, especially since 
the bloody coup which was planned and executed by Second Prime Minister 
Hun Sen against the duly elected First Prime Minister of Cambodia, 
Prince Ranariddh.
    To fully understand the depth of this ongoing Cambodian crisis and, 
more specifically, the obviously Hun Sen staged and rigged July 26, 
1998 election and its aftermath, one needs to briefly assess the role 
and the motivation of different interest groups involved. The proposed 
period of analysis starts just before the presence of United Nations 
Transitional Authorities in Cambodia (UNTAC) in Cambodia (1992-93) and 
continues until the present day. For analytical purposes, one can 
divide these interest groups into two broad categories; 1) the domestic 
factors such as the Cambodian political factions, the King, the 
Cambodian NGOs and the local media, 2) the international community 
encompassing the United Nations system, the major powers and regional 
powers as well as the international NGOs and media.
               i. domestic aspect of the cambodian crisis
A. Cambodian People's Party (CPP): origin, organization, ideology, 
        strategies, and policies
    The CPP is a splinter group from the deadly and monstrous Khmer 
Rouge Movement under the leadership of Pol Pot. All current senior CPP 
members were senior Khmer Rouge cadre including Hun Sen, Chea Sim, Heng 
Samrin, Sar Kheng, Tea Banh. The split came after Pol Pot started his 
periodical purges against party members. The current CPP group fled to 
Vietnam to save themselves from the P01 Pot purge and not because they 
wanted to liberate Cambodia from the Khmer Rouge as Hun Sen and his 
apologists have often stated. On December 25, 1978, the armed forces of 
the Socialist Republic of Vietnam invaded Cambodia and drove the Khmer 
Rouge back along the border with Thailand. In January 1979, Vietnam 
installed a new government, headed by Heng Samrin, a former Khmer rouge 
general, and the regime was renamed the People's Republic of Kampuchea 
(PRK).
    Gradually, the PRK had no choice but to release its firm grip on 
the economic organization of Cambodia. However, it kept firm control on 
the economic, political, and social organizations of Cambodia. 
Essentially, the PRK remained a communist organization with a centrally 
controlled and hierarchical economic and political command system. This 
centrally controlled command system is still in place today in 
Cambodia. However, it now wears the mask of a market system. As all 
typical communist organizations, the CPP remains a secretive 
organization and a one party state-controlled system. It does not 
tolerate any decent or political opposition however mild this may be.
    Only with the collapse of the former Soviet Union and the 
subsequent halt of all Soviet financial and economic assistance to its 
satellites did Vietnam officially announce its withdraw from Cambodia. 
Without support from the socialist block the PRK was forced to start 
opening up and negotiating with the United Nations which was backed up 
by the major and regional powers for an election to set up a democratic 
system and a market economy in Cambodia.
    The successful conclusion of the second Paris Conference in 
October, 1991 led to the establishment of UNTAC, under whose mandate an 
election was organized and carried out in May, 1993. The result of the 
election gave a clear majority to the non-communist parties which 
garnered a total of 69 seats. These parties included FUNCINPEC (Front 
Uni National pour un Cambodge Independent Neutre Pacific et Cooperatif) 
led by Prince Norodom Ranariddh, Buddhist Liberal Democratic (BLD) led 
by former Prime Minister Son Sann,, and Moulinaka (Movement de 
Liberalization National du Kampuchea) led by Ros Roeun. Despite the 
advantage of the incumbency and a deliberated, and vicious campaign of 
intimidation and political killings of the members of the opposition 
parties, the CPP (formerly PRK), led by former senior Khmer Rouge 
officials, Chea Sim, and Hun Sen managed to grab 51 seats.
    The elected representatives established a Provisional National 
Assembly which succeeded in promulgating a new constitution. After a 
threat of secession of seven eastern provinces by the CPP with a tacit 
approval of the King, a new coalition government coalition was imposed 
on the victorious non-communist parties. In coalition Hun Sen and his 
CPP not only obtained the crucial post of Second Prime Minister, but 
also the important post of Chairman of the National Assembly. To lock 
in their minority position in any decision making in the National 
Assembly, the CPP succeeded in imposing the rule of two thirds majority 
in any vote in the national Assembly. FUNCINPEC was given the post of 
First Prime Minister. They co-managed major ministries such as Defense, 
Interior. The economic ministries were split between CPP and FUNCINPEC. 
The army, the police, and civil administration remained totally in the 
hands of the CPP.
    The Royal Coalition Government of Cambodia (RGC) was a tenuous 
coalition. Political infighting continued, both within and among the 
parties in the government. Corruption was and continues to be 
widespread. This combined with the extremely low capacity of government 
to manage, was increasing the threat of destabilization, which 
culminated in the July 5, 1997 bloody coup organized and executed by 
Hun Sen against Prince Ranariddh.
    Last year's coup was only a phase in a long term plan by Hun Sen 
and his CPP to completely take economic, and political control of 
Cambodia. Despite the claims by Hun Sen apologists, it was not a 
reaction to preempt a so-called coup by Prince Ranariddh in collusion 
with the Khmer Rouge. The CPP's long-term plan to derail and undermine 
the democratic process which was established by UNTAC which was agreed 
upon and paid for by the international community. This conspiracy was 
clearly enunciated by two former senior UNTAC officials, Lieutenant-
General John Sanderson, Commander of UNTAC force, and Michael Maley, 
Senior Deputy Chief Electoral Officer during a recent hearing at the 
Australian parliament Foreign Affairs sub-committee in Canberra during 
which they commented that the CPP has been deliberately, and often 
violently, undermining the democratic process begun in 1993 by UNTAC. 
They went on to say that the deficiencies of the recent elections in 
Cambodia;

        . . . were in no sense unavoidable or attributable to the 
        difficulties of conducting elections in a developing country. 
        Rather they flowed from conscious political acts by the ruling 
        clique, reflecting a lack of genuine commitment to the process 
        and to the rights of individual Cambodians \1\
---------------------------------------------------------------------------
    \1\ For a more complete view on how the CPP has been undermining 
the UNTAC program, see Phnoni Penh Post (9/04/98) ``UNTAC officials 
speak out on election.''

     There were several bloody incidents which preceded the July 5 
coup, such as grenade attacks against the opposition parties of Mr. Son 
Satin in 1995 and a worse one against Sam Rainsy in March, 1997. These 
were not isolated incidents. They were carefully planned and well 
executed for specific purposes; first to silence the opposition, and 
second to test the degree of commitment to the defense of democracy and 
the rule of law in Cambodia by the international community.
    After having rigged the July 26, 1998, election, Hun Sen started to 
implement the last phase of his grand plan to gain complete control of 
Cambodia's destiny. On September 7, he ordered the arrest of one of his 
most outspoken critics, Mr. Sam Rainsy, (Under international pressure, 
that order of arrest was subsequently withdrawn). Some of Hun Sen's 
false accusations against Sam Rainsy include 1) plotting his own death 
during the bloody incident in March, 1997 in which several peaceful and 
lawful demonstrators were killed and over 100 other demonstrators were 
injured including a US citizen, and 2) for having incited riots against 
the government after the election. Regarding the grenade attack, 
several eyewitnesses reported that they saw Hun Sen's personal security 
guards prevent those who committed this crime from being caught by the 
demonstrators. Up to today, nobody has ever been arrested for that 
incident.
    At first one is struck by the fact that unlike the other two major 
totalitarian Asian countries, China and Vietnam, there are no political 
prisoners in Hun Sen's Cambodia. The main reason for this anomaly is 
the fact that Hun Sen does not take prisoners. He just has his 
opponents murdered in the most savage way. If they are lucky, they are 
sent into exile, despite the fact that the current constitution does 
not permit such an action against any Cambodian citizen.
B. King Sihanouk's Role and His Influence in the Current Cambodian 
        Political Crisis
    It is no simple matter for anybody, and especially for a Cambodian, 
to criticize a national icon like King Sihanouk and to analyze his role 
in the political life in the current Cambodian crisis. However, it 
would also be irresponsible and imprudent to leave Sihanouk's role out 
of any assessment of the contemporary political situation in Cambodia. 
Right or wrong, and although being only a constitutional monarch, he 
still can command a lot of influence both in Cambodia and 
internationally.
    On the bright side, he is a tremendously charismatic, charming, 
shrewd, and talented person. However, on the dark side and from past 
behavior, he was also known to be very unpredictable and mercurial, and 
not very committed to moral or democratic principles. By birth, he is 
an autocrat and behaves like one. Judging from his preferred places of 
residence outside Cambodia (Beijing and Pyongyang) and the leaders he 
admired and befriended with (Kim II Sung, Mao Tse Tung, Ceaucescu, 
Hodja, Sukarno, to mention only the obvious ones) \2\ he is no friend 
of democracy. The dark and Machiavellian side of Sihanouk was recently 
revealed and well captured in an article in the Phnom Penh Post--a well 
respected English language local newspaper--describing the role of 
Sihanouk's role as a power broker in the current constitution crisis 
resulting from the charge of frauds during the July 26, 1998 election, 
when it wrote that;
---------------------------------------------------------------------------
    \2\ For more details on Sihanouk's friends, see, Charisma and 
Leadership, by Norodom Sihanouk, Yohan Publications, Inc., Tokyo, 1990.

        The King is ``smiling his Bayon face'', as one Khmer politician 
        described it--the Bayon being the four faced god statue of 
        Angkor. Under this premise, Sihanouk selectively makes his 
        thoughts and advice known to all actors, much of it probably 
        contradictory--all the while muddying the waters further even 
        as many look to him for a solution \3\
---------------------------------------------------------------------------
    \3\ Phnom Penh Post. (9/4/98) ``Relaxed Hun Sen Holds the Royal 
Key.''

    He has always allied himself with those with strong preference for 
power, more specifically raw power. For instance, during the 1970's and 
1980s, he worked very closely with the Khmer Rouge leaders such as Pol 
Pot, Son Sen, Leng Saiy, and Khieu Samphan and has often proclaimed 
publicly that they were the most patriotic people dedicated and the 
best equipped to defend Cambodia's sovereignty. Recently, he appears to 
have decided to switch his allegiance to Hun Sen even though he knows 
that Hun Sen is no royalist. Why then did the King decide to choose Hun 
Sen as his ally and to go against his own son, Prince Ranariddh and his 
own brother, Prince Sirivudh in the current crisis? He refused to 
pardon Prince Sirivudh who was framed by Hun Sen to have plotted his 
assassination, while he has pardoned some of the most notorious Khmer 
Rouge responsible for the Cambodian genocide, such as Leng Saiy (former 
Khmer rouge foreign minister) and Ke Pauk (the executioner of the Toul 
Sleng interrogation center). More recently, he reluctantly pardoned his 
own son, Prince Ranariddh, only after a great deal of international 
pressure.
    To better understand this apparent contradiction. It is important 
to analyze the King's motivation. It is a well-known fact in Phnom Penh 
political circles that one of the King's main goals is to make his 
beloved consort queen Monineath (formerly Monique Izzi) a reigning 
queen after his death or incapacitation. To achieve his royal wish, 
King Sihanouk needs the support of Hun Sen and the CPP. For that reason 
Sihanouk has recently struck a deal with Hun Sen to have the 
constitution changed \4\ to make possible a female to become a reigning 
queen, which the present constitution does not allow for. Queen 
Monineath, in turn, would groom her son, Prince Norodom Sihamoni to 
become king of Cambodia after her retirement or death. Therefore, King 
Sihanouk can no longer be considered to be a neutral party in this 
current constitutional crisis and any future search for its solution.
---------------------------------------------------------------------------
    \4\ As reported by the National Radio of Cambodia--a government-run 
radio (AFS No. BK25081 42598)
---------------------------------------------------------------------------
    It is also important to point out that under Hun Sen there is no 
credible legal or justice system. Hun Sen is the law. The members of 
the National Election Commission (NEC) as well as the Constitutional 
Court (CC), the highest institutions in which to settle constitutional 
disputes are all stacked with Hun Sen appointees. That is why these two 
influential institutions which have enormous power to determine the 
outcome of any election have been consistently refusing to listen to 
the complaints of the two major opposition parties regarding the 
electoral frauds and intimidations before, during, and after the 
election.
    One of UNTAC's legacies was the establishment of a vibrant and 
sometime unruly written media. However, this press freedom is quickly 
dwindling under Hun Sen's unrelenting assault which has included 
assassinations of editors and reporters in broad daylight and 
threatening grave consequences if they don't stop criticizing him and 
his regime. Now most editors and reporters who opposed Hun Sen and the 
CPP have either gone underground or are in hiding.
    Another organization which came under Hun Sen's attack was the free 
Cambodian labor movement which is now practically under total state 
control. This in turn, raises the question whether the granting of GSP 
to Cambodia is still legal under current US law. A representative of 
the AFL-CIO in Bangkok has recently filed a petition to the Congress on 
this issue calling into question the legality of the granting of GSP to 
Cambodia.
    The opposition parties are being literally torn into pieces. 
Immediately after the 1993 elections the two main opposition parties, 
FUNCINPEC and the BLD were subjected to systematic assaults through 
bogus accusations against prominent politicians such as Prince Norodom 
Sirivudh, former Deputy Prime Minister, by assassination during the 
July 5, 1997 coup, and through corrupt practices such as buying the 
allegiance of those opposition politicians who were ready to leave 
their parties. In this latter case, the most favored tactic was to 
create a splinter group and then allow the pro-CPP splinter group to 
use-the old party name while refusing to allow the original members to 
do so. This method was devised to confuse the international Community 
and the Cambodian electorate. That is why the BLD became the Son Sann 
party, and the old Khmer Nation Party is now the Sam Rainsy party.
          ii. the international aspect of the cambodian crisis
A. The Ambivalent role of the international community in the current 
        Cambodian crisis
    Despite the CPP's maneuvering, and intimidations before and during 
the July 26 election the majority of the Cambodian people came out en 
mass (90 percent) and courageously voted in favor of the opposition. As 
a matter of fact, together FUNCINPEC and Sam Rainsy parties received 
about 59 percent, while the CPP received only 41 percent of the total 
popular votes. In other words, the opposition won the election. 
However, because of the secret change in the seat distribution formula 
by the NEC, the CPP received 52 percent of the seats in the new 
National Assembly while the two major opposition parties together 
received only 48 percent of the total. These numbers do not add up to 
make the July 26 anywhere near the ``miracle on the Mekong'' as 
suggested by former Congressman Steve Solarz. Additionally, the 
European Union and ASEAN observers have prematurely declared that the 
election was free and fair and ``broadly representative of the wish of 
the Cambodian people'' without even bothering to wait for the electoral 
process to be completed.
    It is important to point out that the preconditions for a free and 
fair election were never there to allow the election to move as 
scheduled. Almost all of the independent organizations such as the 
International Crisis group (ICG), the International Republican 
Institute (IRI), the National Democratic Institute (NDI), Human Rights 
Watch, Amnesty International, and numerous local NGOs have indicated 
that the opposition parties were not allowed sufficient access the 
electronic media, and that the NEC and the CC were not neutral. I would 
like to also point out that some influential members of the US Congress 
such as Congressmen Benjamin Gilman, Dan Burton, Tom Campbell, Dana 
Rohrabacher, Chris Smith, and Gerald Solomon, have recently written a 
letter to Secretary of State Albright to draw the attention of the 
Secretary of State to the post-election intimidations and 
irregularities and to ask her to have

        . . . the State Department immediately deliver a firm statement 
        to Hun Sen informing him that all acts of violence and ballots 
        manipulation will not be tolerated. \5\
---------------------------------------------------------------------------
    \5\ See the letter dated August 6, 1998 from the six members of the 
Congress to Secretary of State Albright.

    There were also the issues of the politically-motivated killings of 
opposition parties members prior to the election and continued impunity 
for the perpetrators of politically motivated violence.
B. Wrong and damaging premises and double standard of judgment for the 
        support of Hun Sen by the international community
    Why then was the international community including the Clinton 
Administration so eager to push for the election to take place despite 
all the major problems which were mentioned previously? The answer to 
that is the fact that 1.) there is a general compassion fatigue and 2.) 
the politics of expediency have been adopted by the major and regional 
powers. The rationale for such realpolitik approach is based on two 
wrong premises. The first premise is that the CPP is the only efficient 
political organization which can maintain stability and promote 
prosperity in Cambodia. The second premise is based on the perception 
that the CPP is the only organization capable of defeating the remnant 
Khmer Rouge force.
    1. On the first premise that Hun Sen and his CPP can maintain 
stability and promote growth is untrue, in fact Cambodia under Hun Sen 
has wasted a lot of economic and financial assistance to maintain an 
army whose main objective is to eliminate all opposition and to 
maintain an atmosphere of permanent fear in which to subdue and to 
control the majority of the population. In that sense, the CPP is a 
very efficient organization in the tradition of communist countries 
which destroy rather than builds the society.
    One can cite many examples to illustrate the fiasco of the Hun 
Sen's management of the Cambodian economy and society. For instance, 
Cambodia is on the US list of narco-states. The other distinctive 
failures of the Hun Sen regime include the pervasive presence of money 
laundering, the exploitation of children for prostitution and labor, 
the use of Cambodia as a staging area for illegal immigration to third 
countries, the pervasive corruption and banditry and, last but not 
least, a dismal record in human rights, and the mismanagement of the 
environment, especially of forestry resources.
    It is estimated by two independent and professional organizations, 
Global Witness and the World Bank that at current rate of exploitation 
there will be no more forest left in Cambodia within three years. This, 
in turn, will deprive the majority of the Cambodian people the 
necessary means to grow food and to raise animals for field works. The 
impact of deforestation on the Cambodian society is well captured by 
Kirk Talbot, Senior Director for Asia-Pacific at Conservation 
International.

        The Plunder of Cambodia's forest is viewed by many as close to 
        spiraling out of control. The resulting damage to the country's 
        natural resource base is huge, as the loss of revenue to its 
        government. And less tangible, but also important, is the 
        concomitant loss of the government's credibility as the 
        protector of the common good. As a result how Cambodia deals 
        with logging is vital to the country's economic and political 
        future. \6\
---------------------------------------------------------------------------
    \6\ For a detailed description of the devastating effects of 
deforestation on the Cambodian people, and the corrupt practice in Hun 
Sen regime, see ``Logging in Cambodia: Politics and Plunder'' by Kirk 
Talbot in Cambodia and the International Community, Asia Society, New 
York, 1998.

    For these reasons, Cambodia may soon become a beggar nation waiting 
for the international community to provide the basic food to survive. 
Because of the more pronounced cycles of droughts and floods Cambodia 
is already confronted with a growing and prolonged food shortage. This 
problem will become more acute within two to three years. Are these 
signs that the Hun Sen administration is efficient and capable of 
promoting growth and stability?
    2. On the second premise that only Hun Sen and the CPP are capable 
of solving the Khmer Rouge problem, one should ask the following 
questions. How did Hun Sen go about solving this problem? Where are 
those Khmer Rouge now?
    Hun Sen's immoral method of solving the Khmer Rouge problem was to 
offer a general pardon to all Khmer Rouge except Pol Pot (who was 
already dead), Khieu Samphan, Noun Chea, and Ta Mok. The rest of the 
Khmer Rouge including the most notorious executioners of the two 
million innocent Cambodians are all now integrated into the Hun Sen 
government or army. In other words, Hun Sen has disregarded all the 
basic principles of a modern society like justice, the rule of law, and 
human rights.
    The main reason why Hun Sen has been able to continue to oppress 
and impose his tyranny on the Cambodian people, is the fact that the 
international community has been too expedient and indifferent in 
dealing with him. They lowered their standards in judging his behavior 
in the and the management of Cambodian society. This point was 
eloquently expressed by Martin Collacott, a former Canadian Ambassador 
to Cambodia and chief Canadian observer during the July 26 election 
when he wrote that;

          The argument has been made that Cambodia has suffered 
        exceptional trauma and dislocation in recent decades and that 
        it is therefore not reasonable to apply the same standards we 
        expect of more settled and economically developed countries.
          This approach makes sense up to a point. The fact is, 
        however, that, after an impressive start following the United 
        Nations-sponsored elections in 1998, there has for the most 
        part been more erosion than consolidation of democratic value. 
        \7\
---------------------------------------------------------------------------
    \7\ ``Cambodia's Flawed Election--Where to from Here,'' Phnom Penh 
Post, September 4, 1998.

    Only by comparing Hun Sen's management style and behavior to those 
of the Khmer Rouge can there be any sign of progress. In contrast, the 
Cambodian democratic movement has been judged according to the 
international standard of value in terms of justice, the rule of law 
and human rights.
    This double standard way which the international community 
including the State Department has been adopting to judge Cambodian 
politicians has allowed Hun Sen to continue to destroy the Cambodian 
society and to lead Cambodia to remain dependent on foreign assistance. 
Based on his academic and professional experiences as an economist 
specializing in the reform of many countries in transition, this writer 
is convinced that Hun Sen does not even have a minimal grasp or 
understanding of any democratic or civil society principles to lead 
Cambodia toward a path of modernity and prosperity. Well schooled in 
the Khmer Rouge culture of violence and corruption, Hun Sen can only 
bring Cambodia down toward the path of permanent dependence and misery.
iii. what should the united states policy be with regard to the ongoing 
                          crisis in cambodia?
    Cambodia is a very small and poor country with only 11 million 
inhabitants. However, its people have had their share of misfortune and 
tragedy. The international community has spent more than US$ 3 billion 
to help Cambodia return to normal conditions through the work of UNTAC. 
On the surface, the international community has every reason to have 
compassion fatigue. However, if the international Community decides to 
drop Cambodia from its radar screen, this would only fulfill the wish 
of Hun Sen and allow him to rule Cambodia as a primitive despot.
    I argue that the Cambodian people, because of their courage and 
tenacity in their belief in democracy and the rule of law still deserve 
the attention of the international community only if one argues not in 
economic or financial terms, but in humanitarian and ideological terms. 
To allow Hun Sen to run Cambodia as his private fiefdom and to behave 
like a tyrant oppressing the Cambodian people on a massive scale could 
send a very strong but wrong message to countries like Indonesia, 
Myanmar even China, where democratic movements are getting stronger and 
more active, and like Russia where democracy and the market system are 
being questioned.
    For the reasons discussed earlier, the Clinton Administration 
should recognize that its policy of picking Hun Sen as the only choice 
for governing Cambodia is fundamentally flawed. I would like to suggest 
that if the Cambodian people are to have any chance of escaping mass 
starvation and permanent dependence on international generosity, the 
Clinton Administration in consultation with the Congress should 
consider the adoption of the following measures:

    1. Disengage itself from the current policy of considering Hun Sen 
as the only leader who can bring stability and prosperity for the 
Cambodian people. This policy of expediently supporting Hun Sen, at all 
costs, is contrary to the principles upon which President Clinton has 
publicly and officially stated as the cornerstone of his administration 
foreign policy; namely the promotion of democracy, the rule of law, and 
human rights in the world. Based on the above analysis, it is clear 
that Hun Sen is not a ``born again democrat'' as some State Department 
officials have been suggesting, and his political organization is only 
efficient at destroying but not at building a nation.
    2. Continue to deny Hun Sen the right to be represented at the 
United Nations until he can sufficiently and sustainably demonstrate 
his willingness to respect human rights, the rule of law and democratic 
principles.
    3. Strongly communicate to Hun Sen that he must make all efforts to 
bring to justice all those responsible for the political killings prior 
to and after the July 5, 1997 coup before the United States sends a new 
Ambassador to Cambodia. This would send a strong message to Hun Sen 
that the US means business if the current Ambassador can be withdrawn 
from Phnom Penh as soon as feasible.
    4. Continue to deny Hun Sen economic and financial assistance, 
except humanitarian aid, from the United States and from the 
international financial institutions such as the IMF and the World Bank 
until Hun Sen makes substantial and sustainable efforts to improve the 
governance of the country, by eliminating corruption in general and 
stopping the destruction of the environment in particular.
    5. Review GSP for Cambodia as soon as possible to see whether the 
current Cambodian government labor law and practice are conformed to 
the existing US legal conditions for granting such an economic 
privilege.
    6. Make renewed and sustained efforts in bringing to trial all 
Khmer Rouge senior officials whose records are on files with the 
Cambodian Genocide Project and who are now under Hun Sen's protection 
as soon as possible within the framework of an international criminal 
court similar to those for Rwanda or Bosnia.
    7. Refrain from pressuring the opposition leaders to join a 
coalition government dominated Hun Sen, even if King Sihanouk supports 
that idea. More specifically, the Clinton Administration should 
instruct the State Department not to put pressure on the opposition 
parties to enter into a CPP-dominated coalition government whose 
economic and social policies will have no chance to succeed because of 
the pervasive corruption and the absence of the rule of law within the 
CPP organization.
    8. Consider the possibility of establishing a caretaker government 
in Cambodia in the near future. Only when Hun Sen and his CPP are 
politically neutralized can the Cambodian situation really improve. But 
this requires a firm commitment from the United States and its allies 
to put this plan into action. The Cambodian situation is at such a 
hopeless juncture that only a drastic policy change by the United 
States, as the world leader in the promotion of democracy, the rule of 
law, and human rights, can really have a lasting impact. This situation 
has recently been forcefully and soberly argued by Henry Kamm of the 
New York Times.

        I see no other way but to place Cambodia's people into caring 
        and disinterested hands for one generation of Cambodians, who 
        will have matured with respect for their own people and will be 
        ready to take responsibility for them. Unrealistic? of course. 
        Unrealizable? No. \8\
---------------------------------------------------------------------------
    \8\ Henry Kamm ``the Cambodian Calamity,'' The New York Review, 
August, 13, 1998.

    Thank you Mr. Chairman and members of the Committee for your kind 
---------------------------------------------------------------------------
attention.

    Senator Thomas. Thank you very much. You list in your 
summary seven suggestions, and I appreciate you summarizing 
them that way. Thank you. Mr. Craner?

    STATEMENT OF LORNE W. CRANER, PRESIDENT, INTERNATIONAL 
                      REPUBLICAN INSTITUTE

    Mr. Craner. Mr. Chairman, thank you for your invitation to 
testify today.
    Mr. Chairman, Cambodia's misfortune continues, and I fear 
that those of us who observed the election as a group are 
partly to blame. I say that because Cambodia's July 25 election 
was the test for Cambodia's rejoining the rest of the world.
    Based on a clean election day and the first half of the 
ballot counting process, most observers gave the election their 
blessing. But those criteria are insufficient for judging an 
election.
    Over the past 15 years, IRI has observed more than 60 
elections in over 3 dozen countries around the world. In that 
time, we have seen a number of countries seemingly holding 
elections for international observers, as opposed to their own 
people.
    By that I mean that the portions most observers saw, 
election day and the initial counting process, were pristine. 
But the parts unmonitored by most foreign observers, the months 
before the election, the conclusion of the counting, and the 
months following the election were so fraught with problems 
that they render election day meaningless.
    In short, dictators were able to both steal and election 
and to get the blessing of international observers. Such a 
process has occurred in Cambodia.
    I will summarize each of the four stages of the recent 
election, pre-election stage, election day, counting and post 
election, to illustrate my point.
    Cambodia's pre-election phase, which began with the July 
1997 coup, saw 100 opposition figures murdered, party leaders 
in exile, party infrastructures destroyed, the widespread 
intimidation of voters, and a bias election law and law 
commission put into place, all before opposition leaders were 
allowed to return between 4 and 6 months before the election.
    These problems let a joint IRI National Democratic 
Institute team--that is our sister institute--headed by Mort 
Abramowitz, to conclude that the pre-election phase was 
fundamentally flawed.
    Election day itself was as good as many IRI has ever 
observed, a high voter turnout with no evidence of election day 
intimidation and an administratively well-done balloting 
process. The initial counting also proceeded well. And it was 
at this point that most foreign observers went off to write 
their statements blessing the election.
    The initial counting was halted when, according to a senior 
election commission official, opposition parties gained the 
edge. The election commission then announced a change in the 
way votes won related to assembly seats won, giving the ruling 
CPP party 52 percent of the seats, though they had won only 41 
percent of the votes.
    Finally, both the election commission and the 
constitutional council, the initial and final arbiters of 
election disputes, declined to hear all but a few of the 
opposition's over 800 election complaints.
    After the election, intimidation of opposition figures 
resumed, including another attempt on the life of Sam Rainsy, 
who is here with us today. The opposition nevertheless led 
demonstrations, including a sit-in attended by thousands in 
Phnom Penh.
    In the next 2 weeks, at least twenty demonstrators were 
killed before police ended the sit-in. Travel abroad by 
opposition party leaders was banned until this week, but 
remains in place for dissidents Kem Sokha. Under this pressure, 
opposition leaders last week agreed to attend the opening of 
Cambodia's new parliament, but have so far not agreed to join 
Hun Sen in a coalition government. But that day will soon come. 
And this goes to the issue of leverage for the opposition.
    This is King Sihanouk on the opposition's leverage. Let me 
quote him. In a Cambodia that is not a state of law and not a 
full-fledged democracy, I have no other choice than to advise 
the weak to choose the policy that avoids misfortune for the 
people, the motherland and themselves.
    Mr. Chairman, many will say that in a Third World country 
like Cambodia we cannot expect a better election. Believe me, 
we can. And I know because IRI has seen them in poor countries 
like Mongolia and war-ravaged poor countries like Nicaragua.
    There is, in fact, no excuse for such a bad election, 
except the desire of a dictator to stay in power. Beyond his 
years with the Khmer Rouge in the seventies, beyond his 
authoritarian rule in the eighties, Hun Sen has shown his 
desire to remain in power by rejecting the 1993 election 
results, by the 1997 coup and now, for the fifth time, by the 
1998 elections.
    As the New York Times recently put it, since the Khmer 
Rouge came to power in 1975, Cambodia has suffered under an 
assortment of dreadful governments, and Hun Sen has been in all 
of them. He has not only been in all of them. For 20 of the 
last 23 years, he has effectively headed that assortment of 
dreadful governments.
    At this moment, we have to deal with him. But that does not 
mean we must deal on his terms. He craves legitimacy, 
especially that accorded by the U.S. Cambodia's government has 
not yet been given the UNC international financial assistance 
or U.S. aid cutoff after last year's coup.
    Finally, you will soon decide whether this is the time to 
confirm a new envoy to Phnom Penh.
    My written testimony contains yardsticks by which to 
measure a restoration of democracy that should be our major 
reason for dealing with Hun Sen. In sum, we should look for in 
the next few weeks a resolution of opposition election 
complaints and a coalition government of substance that 
involves true power sharing.
    Over the next few months, we also have a right to expect an 
improvement in the overall human rights situation, including 
safety for Hun Sen's opponents and their families and changes 
in the judicial system that could be proved by investigating 
and prosecuting those responsible for past human rights abuses.
    Mr. Chairman, this election was set as a test, and it was 
found wanting. If we fail to act firmly and instead acquiesce 
to this election, we will again consign the people of Cambodia 
to darkness.
    But accepting this election will have reverberations beyond 
Cambodia. Mr. Chairman, it would invite other dictators to take 
a page from Hun Sen's play book. Dictators around the world 
would feel free to repress their opposition and the voters for 
months or years either side of an election, confident that the 
international community will certify the process as long as 
election day looks good.
    Mr. Chairman, when I was younger, I wondered if those old 
phrases describing the U.S. as a beacon of freedom or a city on 
the hill were just cliches. I found in my travels around the 
world, as IRI's president, that people everywhere do indeed 
still look to the U.S. as the bastion of freedom.
    We should not let them down, and we should not give 
elections a bad name by assenting to recent events in Cambodia.
    Thank you.
    [The prepared statement of Mr. Craner follows:]

                 Prepared Statement of Lorne W. Craner

    Mr. Chairman, it is an honor to testify before you today in the 
Senate, where I worked during the 1980s for Senator McCain, and as the 
State Department's liaison during the Bush administration.
Election standards
    Election observation has come a long way since those days. Ten 
years ago, the events of election day, whether citizens were able to 
cast their ballots freely, in an orderly fashion, was the standard by 
which the democratic process was judged.
    In the late 1980s and early 1990s, a number of dictators taught us 
a lesson, that the events surrounding the election are often more 
important than the day itself Specifically, authoritarians realized 
that, to steal an election, they did not have to stuff the ballot 
boxes, but could instead achieve their objective in the months 
surrounding election day by means less apparent to traditional 
observers.
    In effect, for IRI and other observation groups, a one part test 
for judging an election had to become a four part test if we were to 
accurately evaluate how representative of a country's democracy an 
election was.

  <bullet> the first part to be evaluated is the months long pre-
        election phase, during which the central issues are whether 
        candidates and their supporters are allowed to campaign freely, 
        whether they have equal opportunity to access both the media 
        and the election commission itself, and whether voters are left 
        free to decide for whom they will vote;
  <bullet> the second part of the test is the conduct of election day 
        itself as outlined above;
  <bullet> the third phase immediately follows election day: were 
        ballots counted in an orderly, accurate manner, and were there 
        opportunities for reasonable appeal of results doubted by some?
  <bullet> and finally, in the longer term, after voting and counting 
        ballots, did all parties respect the election's results and 
        work together to form a new government?
IRI's experience
    Since 1983 IRI has observed more than 70 elections in over three 
dozen countries. In doing so, we have only one asset that matters, and 
that is a reputation for impartiality--a willingness to call an 
election process like we see it, and to do so without regard to who won 
or lost.
    Most recently, our approach led IRI to call the 1995 Haitian 
elections flawed, leading to criticism from some Democrats here in the 
Senate. It also led IRI to judge the 1996 Albanian elections flawed, 
leading to criticism from some in my own party who admire President 
Berisha.
Cambodia's election
    Our willingness to call it like we see it leads IRI to judge 
Cambodia's 1998 election process similarly flawed, and among the worst 
we have observed since 1993.
    The events that lead IRI to condemn it occurred not on election 
day, but in the days, weeks and months before and after the balloting. 
While the July 26th election day itself impressed observers, including 
IRI, those of us who monitored the pre-election process, and remained 
to observe the counting and longer-term post-election events, believe 
that, taken as a whole, this election fell below an acceptable 
standard.
    Let me divide Cambodia's elections process into the four phases I 
mentioned before to show how IRI reached its judgment.
    In a July 14th joint statement, IRI and the National Democratic 
Institute (NDI) judged the preelection phase ``fundamentally flawed'' 
because of:

  <bullet> the July 1997 coup, and subsequent destruction of opposition 
        party infrastructures;
  <bullet> the failure to allow opposition leaders to return until less 
        than six months before balloting, the denial to them of access 
        to media once in-country, and the murder of up to 100 
        opposition members without any resolution to the crimes;
  <bullet> the overwhelming ruling Cambodian People's Party (CPP) 
        domination of the 11 member National Election Commission (NEC), 
        with all but one of the non-CPP party seats given to CPP-backed 
        splinter groups of opposition parties, and a hastily formed, 
        biased Constitutional Council, the ultimate arbiter in election 
        matters;
  <bullet> more than 100% of those thought to beof voting age 
        registering in some areas;
  <bullet> the widely reported intimidation of voters, leading to a 
        common belief that their votes were not secret. (This is one of 
        the most problematic areas--in past elections where 
        authoritarians controlled the process, a key factor leading to 
        a genuine election result has been the voters' belief that they 
        could cast their ballots in secret and therefore without fear 
        of reprisal);
  <bullet> an election law and regulations that were debated and 
        approved by the CPP and splinter groups of the opposition 
        parties. The legitimate leaders and elements of the opposition 
        parties were in exile in Bangkok, still fearing for their lives 
        from the coup. (After his return to Phnom Penh, Prime Minister 
        Ranariddh was able to have one element of the election law, the 
        location of ballot counting, changed).

    In short, during the pre-election period, the CPP wrote the rules 
and controlled the process.
    As the IRI-NDI July 28th preliminary statement indicated, the 
second test, Cambodia's election day administration, was as good as 
many we have seen over the past five years, and deserves a high mark:

  <bullet> the election administration ran very smoothly at most places 
        observed;
  <bullet> few of our delegates saw any sign of election day 
        intimidation;
  <bullet> over 90% of those registered turned up at the polls.

    There remains a question of whether pre-election day intimidation 
pre-ordained the votes of many Cambodians (most voters we asked 
directly said they were not intimidated). That said, had subsequent 
portions of the Cambodian election run as smoothly as the election day 
activities we observed, one could say that some pre-election problems, 
though unacceptable, were, in context, to a significant degree 
ameliorated.
    Unfortunately, that is not the case. After a promising start, the 
third part of the election, the counting process immediately following 
election day, must be judged as deliberately incomplete:

  <bullet> counting proceeded smoothly for part of July 27th;
  <bullet> counting was halted in mid-afternoon of July 27th. According 
        to a source high in the National Election Commission, this 
        pause was ordered by CPP officials after the opposition took 
        the lead in ballot counts;
  <bullet> during the counting process, with little explanation, the 
        NEC revealed that the formula relating ballots won, to assembly 
        seats won, had been changed before the election. While the 
        original formulas would have left the CPP with a minority of 
        assembly seats, the formula finally decided upon gave the CPP a 
        majority.
  <bullet> while legally obligated to do so, the NEC declined to 
        address all but a few of the more than 800 election day and 
        counting irregularities charged by the opposition;
  <bullet> the Constitutional Council, supposedly the final arbiter of 
        elections appeals, like the NEC refused to hear the majority of 
        opposition complaints and sided completely with the NEC on 
        issues important to the opposition, including used and unused 
        ballots, recounts, and assembly seat allocation;

    In the longer term, after voting and counting have ended, 
Cambodia's government has failed to act in the way one would expect in 
a democracy:

  <bullet> intimidation of the opposition resumed with the departure of 
        observers;
  <bullet> Sam Rainsy himself narrowly missed being killed in an August 
        20th drive by shooting and grenade attack shortly after a media 
        interview outside the ministry of interior. Rainsy was then 
        detained for questioning in connection with the attack;
  <bullet> at least 20 people, according to the U.N. Center on Human 
        Rights, are known to have been killed, and others went missing, 
        during a three week period of demonstrations and a sit in at 
        Phnom Penh's ``democracy square''. The sit in and 
        demonstrations were forcibly ended after two grenades exploded 
        outside Hun Sen's house while he was outside of town;
  <bullet> following the grenade explosions, Hun Sen ordered the arrest 
        of Rainsy, charging him with the attack. Rainsy took refuge 
        with the Special Representative of the U.N. Secretary General 
        in Phnom Penh's Cambodiana Hotel;
  <bullet> Cambodia's opposition politicians were also banned from 
        traveling abroad after the grenade attack. After Rainsy and 
        Prince Ranariddh defied the ban, it was lifted for 
        parliamentarians, but remains in place for a number of 
        opposition figures who do not have seats in parliament;
  <bullet> summons were issued this week for Rainsy, Kem Sokha and Por 
        Thei (the President of the Dharmacracy Women and Nation Party) 
        on charges of incitement to racial violence and damaging state 
        property relating to the demonstrations;
  <bullet> one bright spot is last Tuesday's agreement between the 
        opposition and the government that used, unused and spoiled 
        ballots should be reconciled. Still unresolved are the 
        opposition's request that the second formula for the allocation 
        of assembly seats be rescinded (in favor of the original 
        formula), for the release of jailed demonstrators, and for a 
        general amnesty for their members.

    The events of the last week, with FUNCINPEC and the Rainsy party 
agreeing to attend the opening of Cambodia's Parliament, under duress, 
should come as no surprise. Beyond the international pressure (mainly 
from Japan and ASEAN countries) exerted on the opposition to come to 
terms with Hun Sen, as King Sihanouk put it ``in a Cambodia that is not 
a state of law and not a full fledged democracy, I have no other choice 
than to advise the weak to choose a policy that avoids misfortune for 
the people, the motherland and themselves.''
    Cambodia's 1998 election constitutes a deliberate attempt to take 
advantage of the weaknesses in 1980s-style observation to have the 
process declared legitimate. Cambodia's government conducted an 
election day up to international standards, hoping that observers would 
ignore the hundreds of days of repression surrounding it. To a large 
degree, the strategy worked.
Excuses, excuses
    We are already hearing excuses about why Cambodia's election fell 
so short of international standards. After every bad election, the two 
most common are:

          Americans are judging the state of a country's democracy from 
        the perspective of a nation with two hundred years of freedom 
        (this was a common refrain from South African politicians 
        seeking to extend apartheid in its dying days); or
          The country in which the election took place is poor, and 
        that the bar for an acceptable election should therefore be 
        lowered.

    At IRI, we hear these arguments after every badly conducted 
election, and in IRI's experience of observing six dozen elections, 
such arguments are specious. I can say that because IRI has seen 
textbook elections in countries that are as poor as Cambodia, and while 
these countries have not experienced the trauma of Cambodia's killing 
fields, many have a longer history of dictatorship.
    For example, a ruling party does not need to head a wealthy, long-
time democracy to refrain from murdering its political opponents. 
Mongolia, a nation nearly as poor as Cambodia, with a longer history of 
dictatorship, had an election run--and lost--by former communists in 
1996 without any election-related murders.
    Nor must a country be a longstanding, wealthy democracy to properly 
count and recount ballots. One of the most well conducted elections IRI 
has observed was the 1994 Autonomous Council election on the remote 
Miskito coast of Nicaragua, the poorest region of a poor country 
emerging from war and decades of dictatorship.
Ramifications of accepting Cambodia's election
    To accept this election would, in fact, devalue the worth of 
elections in building democracies around the world. Other dictators 
would feel free to kill opposition members, gut opposition party 
infrastructures, name a biased election commission, intimidate voters, 
conduct questionable ballot counts and refuse recounts, all the while 
confident that the international community will certify the process, as 
long as election day looks good.
    Observers from the U.N. team (which included China, Vietnam, and 
Burma) are apparently willing to give such a certification to 
Cambodia's election, but the U.S. has a duty to billions around the 
world who look to us to uphold a higher standard of democracy. To agree 
to low standards for elections lowers the expectations of democracy for 
those voting. The U.S. should not give elections a bad name by 
assenting to recent events in Cambodia
Cambodia's election and U.S. policy
    So where does this leave U.S. policy? We have a choice between 
accepting or not accepting the elections process. Both the House and 
Senate versions of the fiscal year 1999 Foreign Operations bill, makes 
clear the unwillingness of Congress to accept Cambodia's elections.
    This is not a case of trade sanctions being put in place against 
Cambodia, nor should withholding U.S. aid leave Washington alone in the 
world. While ASEAN may already have concluded that they are satisfied 
with the election, the Europeans (with the exception of France) have 
not. Leadership by the United States in setting forth our position and 
working with others to follow it has, in the past, produced results.
    Action such as that contemplated by both houses of this Congress 
would also have a high likelihood of producing results. His role in the 
events of the 1970s, 1980s, 1993, 1997 and 1998 should by now have made 
clear that Hun Sen is not a democrat. Any hope for democracy lies not 
with Hun Sen, but with Cambodia's opposition, whom we should support. 
Pressure should be placed on Hun Sen to change his ways, and not on the 
opposition to simultaneously risk their lives while debasing their 
understanding of democracy. The worldwide disgust that followed last 
July's coup had much of the desired effect on Hun Sen, largely because, 
unlike the 1980s, Moscow and Vietnam are unable to bankroll and guard 
his rule. Moreover, as anyone familiar with Hun Sen can tell you, he 
craves legitimacy, and, in his eyes, the ultimate legitimacy is 
acceptance by the U.S.
    As you contemplate further steps, including whether the U.S. should 
back International Financial Institution assistance for Cambodia, the 
issue of Cambodia's U.N. seat, and whether a new U.S. ambassador should 
be confirmed, let me suggest some yardsticks by which democratic 
progress can be measured:

  <bullet> the first is implementation of last Tuesday's agreement for 
        the reconciliation of electoral ballots;
  <bullet> the second is agreement and action relating to the 
        opposition's request regarding the formula for Assembly seat 
        allocation, the release of jailed demonstrators, and a general 
        amnesty for opposition members;
  <bullet> the third pertains to the broader issue of Cambodia's 
        democracy, and that is the extent of true power sharing in any 
        coalition government. This can be measured in three ways:

          --the allocation of the most important Ministries between the 
        presumed coalition partners, FUNCINPEC and the CPP. The three 
        most important Ministries in terms of democratic rule are 
        Interior, Justice, and Finance. Also important are Defense and 
        Foreign Affairs. (Hopefully, any of these Ministries given to 
        FUNCINPEC would come with their current powers);
          --the extent of FUNCINPEC control over any of these 
        ministries allocated; and
          --the extent to which coalition partners share power in 
        provincial and district governments. After 1993, FUNCINPEC 
        governors served over a largely CPP-controlled provincial 
        bureaucracy (as openly admitted in 1995 by the FUNCINPEC 
        Governor of Sihanoukville, Thoam Bun Sron) with predictable 
        results;

  <bullet> The separation of state and party control over Cambodia's 
        judicial branch;
  <bullet> the general state of human rights in Cambodia, including the 
        extent of press freedom, the ability of labor unions to 
        organize, the fate of elected and non-elected opposition 
        members and their families, the ability of non-government 
        aligned NGOs to function free of impediment and intimidation, 
        and the ability to demonstrate freely; and
  <bullet> the results of long-promised government investigations into 
        and prosecutions of those presumed responsible for human rights 
        violations in Cambodia, including the 1995 grenade attack 
        against the Buddhist Liberal Democratic Party Congress, the 
        Easter, 1997 grenade attack on Sam Rainsy, and the murders of 
        opposition figures during the July 1997 coup.

    Taking advantage of my appearance before you, I would also 
respectfully request your assistance on a related issue.
    The results of the FBI's investigation into the Easter 1997 grenade 
attack on Sam Rainsy should be made public. I appeal for your help on 
this for two reasons. First, among the reasons given by Hun Sen for 
threatening Rainsy's arrest is Rainsy's supposed attack on himself in 
the incident (a charge dismissed by the head of the U.N. Human Rights 
Office, which itself investigated the attack). The second reason I 
request your assistance is because an IRI employee, Ron Abney, was 
injured in the attack, precipitating the FBI investigation under U.S. 
anti-terrorism laws. Along with the Congress, both men deserve to know 
who ordered and carried out the attack.
Conclusion
    Cambodia has suffered conflict for almost thirty years. I am not 
among those who believe that U.S. policy during the Vietnam war 
resulted in the 1975 Khmer Rouge victory, but I do believe that, with 
the exception of 1991-1993, Cambodia for too long has suffered from the 
neglect of the international community. This was especially true during 
the last five years, when U.S. policy towards Cambodia at best 
consisted of building roads at the expense of building democracy, and 
at worst suffered from egregiously poor judgment.
    If there is a people on earth who deserve better, it is Cambodians. 
The United States, including the U.S. Senate, can and should help give 
Cambodians the future they deserve.

    Senator Thomas. There is about 5 minutes left on this vote. 
So I think we will have to adjourn for a little bit and come 
back.
    In the meantime, however, let me welcome and call on 
Senator Robb for any comments he might have.
    Senator Robb. Thank you, Mr. Chairman. Unfortunately as is 
often the case, I am sitting on both the Foreign Services 
Committee deliberations over ballistic missile defense, which 
is a very contentious item, as you know. And they adjourned a 
little early.
    I thought I could come here and at least pick up the 
testimony. I understand that Secretary Roth has already 
completed his testimony. I will take it with me.
    I appreciate very much your holding the hearing on this 
particular subject. It has been one of immense interest for a 
very long period of time, and I plan to take with me the 
testimony. And if I can finish up my questions in the other 
hearing, I will come back to this one. But I think this could 
not be more timely and appreciate your holding it.
    I will just leave it at that for right now.
    Senator Thomas. Thank you.
    Well, I am sorry we are interrupted, but that is the way it 
is. And if we can stand in recess for just a few minutes, I 
will get back as soon as I can.
    [Recess: 10:47 a.m to 11:10 a.m.]
    Senator Thomas. Let me see. We are ready, I believe. 
Professor Brown, if you will, sir. Thank you for your patience, 
Professor Brown.

STATEMENT OF FREDERICK Z. BROWN, PROFESSOR, SCHOOL OF ADVANCED 
                     INTERNATIONAL STUDIES

    Mr. Brown.Thank you very much, Mr. Chairman, for this 
opportunity to comment on the current situation in Cambodia. In 
my written testimony, I comment briefly on what I call the 
realities of the political environment in Cambodia in the wake 
of the July 19, 1998 elections and the violence that took place 
subsequently.
    I also suggest several guidelines for U.S. policy over the 
longer term, as the Cambodians attempt to rebuild their 
country. Let me mention only two realities for starters.
    During the past several years, we have seen an erosion of 
the international community's consensus on Cambodia. The 
governments of the Southeast Asian countries and Japan are now 
far more concerned with their own economic problems than with 
Cambodia. Compassion fatigue among economic assistance donors 
has set in.
    In the eyes of Cambodia's neighbors, and indeed of most of 
the signatories to the Paris agreements in 1991, the political 
situation in Phnom Penh is a nasty internal struggle. The 
important thing for outsiders is to prevent any disruptive 
regional expression of this struggle. There is a tendency to 
view the stability of Cambodia as more important than the 
character of its government.
    In practical terms, I believe this means that the United 
States must bear much of the burden in promoting a workable 
solution that protects Cambodia's fledgling democratic spirit 
and respect for human rights and which encourages the 
development of a civil society.
    The second reality, I think, is that it is painfully 
obvious that Cambodia is less important to American national 
interests than, for example, the future of the Japanese 
economy, the North Korean missile threat and Indonesia. 
Nonetheless, it seems to me that we have a commitment to the 
Cambodian people and a responsibility under the Paris 
agreements.
    Let me offer three suggestions with regard to U.S. policy.
    The first has to do with leadership. We should continue to 
work closely with our friends in ASEAN, Japan, Australia, 
Canada and France, despite differences in perspective regarding 
the validity of the July 1998 elections, to find ways to move 
Hun Sen and the CPP toward an acceptance of the opposition as 
legitimate players in Cambodia's politics.
    While the extent to which ASEAN is willing to modify Hun 
Sun's script is limited, ASEAN clearly has an interest in 
preventing Cambodia from becoming a rogue state for narcotics 
trafficking or to otherwise disrupt the region.
    At minimum the United States should seek common action by 
ASEAN and United Nations agencies in pressing for investigation 
into charges of vote counting fraud and investigating the use 
of force in quelling the postelection demonstrations.
    ASEAN has already indicated that Cambodia's membership in 
the group is on hold until a legitimate government is formed. 
The United States must encourage ASEAN to maintain this 
position firmly. The same is true with regard to the seat at 
the United Nations.
    My second recommendation has to do with support for the 
Cambodian nongovernmental organizations. Despite a zero-sum, 
politically intolerant climate in 1993, Cambodians accepted the 
basic concept of a democratic process as embodied in the U.N.-
sponsored elections. The surprise victory of FUNCINPEC 
demonstrated the attractiveness of open elections to rural 
Cambodians, as well as their resentment of the status quo.
    One of the most important legacies of the U.N. presence was 
the growth of mass participation in human rights organizations 
and indigenous NGO's. NGO's were also a positive influence in 
the 1998 elections. The indigenous poll-watching organizations 
of COMFREL and COFFEL, thousands strong, demonstrated the 
determination of many Cambodians to participate in their 
political process even at serious personal risk.
    Except for the Philippines, no other nation in Southeast 
Asia has developed such a pattern of citizen political 
participation. Although jeopardized by the July 1997 coup and 
the political climate after the 1998 elections--before and 
after, I should say--nongovernmental organizations retained 
links with the international community. They also are fragile 
elements of Cambodian society. And the Cambodian People's Party 
probably sees them as a threatening force.
    Nonetheless, indigenous NGO's are microscopic signs of 
civil society that can provide a foundation on which the United 
States and other international assistance programs can build.
    USAID support for humanitarian programs of The Asia 
Foundation and other NGO's with long involvement in Cambodia 
should be continued and expanded to its previous broader scope. 
At some point, assuming a satisfactory political accommodation, 
development assistance to certain parts of the Cambodian 
government--for example, the Ministry of Education--should be 
considered.
    My third recommendation has to do with staying involved. 
The critical issue at the moment of this hearing is the degree 
to which the election complaints of FUNCINPEC and the Sam 
Rainsy Party can be satisfied in a manner which gives them fair 
representation either in a coalition government, which now 
appears to be the case, or as an opposition bloc within the 
national assembly free of harassment and coercion. These are 
rapidly changing tactical matters currently under intense 
negotiation, which Secretary Roth has detailed in his 
testimony.
    The United States must stimulate common diplomatic pressure 
on the current Hun Sen regime. It must continue broad 
cooperation at the United Nations, demand the continuation of 
the U.N. Center for Human Rights in Phnom Penh, and use 
conditionality in the World Bank, UNDP and other international 
financial institutions when financial support to the Cambodian 
government is up for consideration.
    The United States deals with many governments that engage 
in heinous violations of human rights and repression of 
democratic institutions. Some observers have suggested that the 
United States refuse to deal with Hun Sen in an interim regime 
or with whatever Hun Sen dominated regime is likely to emerge 
over the next few weeks. I believe this would be an extremely 
bad policy decision.
    The American embassy in Phnom Penh is still accredited to 
the Royal Kingdom of Cambodia, regardless of Hun Sen's 
repressive record. To break that relationship would remove 
whatever ability the United States has to affect the course of 
events through dialog with Hun Sen himself or with members of 
the CPP, who may be less than enthusiastic about Hun Sen's 
autocratic rule.
    In this regard, I wish to add my view that Ambassador Quinn 
has done a highly professional job in an extremely difficult 
situation.
    Finally, I would point out that even if the opposition were 
to eventually become the dominant group in a coalition with the 
CPP, they, the opposition, now the ruling party, would still 
have to rely almost exclusively on a government apparatus, 
police, military, civil administration, from province capital 
to local communes that are staffed by CPP adherents.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Brown follows:]

              Prepared Statement of Dr. Frederick Z. Brown

    Thank you, Mr. Chairman, for this opportunity to comment on the 
current situation in Cambodia. I was an international polling station 
officer during the 1993 UNTAC elections in Cambodia and spent July 1997 
there during the coup d'etat by second prime minister Hun Sen that 
destroyed the coalition government put in place by UNTAC. I did not 
observe the July 1998 national elections but have followed events in 
Cambodia closely through the reports of the International Republican 
Institute, the National Democratic Institute, the International Crisis 
Group, Amnesty International, and other sources.
    I would like to comment briefly on the realities of the political 
environment in Cambodia in the wake of the July 1998 elections and the 
violence that took place subsequently. Second, I would like to suggest 
guidelines for U.S. policy over the longer term as the Cambodians 
attempt to rebuild their country.
    Prior to July 1997, first prime minister Norodom Ranariddh and 
FUNCINPEC shared power, if unevenly, with Hun Sen and the Cambodian 
People's Party (CPP). Today, the CPP and Hun Sen have a monopoly of 
force through control of police, the internal security services, and 
the Royal Cambodian Armed Forces. On the surface, the CPP's political 
monopoly appears to be equally firm. Beginning in the 1980s, the CPP 
created a countrywide Leninist political system with central Party 
control. The CPP network was strengthened in the post-1993 period by an 
infusion of pork barrel incentives flowing from international 
assistance programs. The CPP systematically used intimidation and 
physical coercion to prevent the development of alternative political 
structures and opposing voices. After July 1997, FUNCINPEC's rural 
organization was dispersed, its members co-opted by the CPP, forced to 
flee or frightened into silence. The CPP now holds the political, 
administrative, and security levers in the Cambodian provinces.
    It is nonetheless clear from the results of the July 1998 elections 
that the CPP and Hun Sen personally do not enjoy the genuine support of 
the majority of the Cambodian people. In spite of widespread 
intimidation, control of the electronic media, and a political machine 
in almost every commune in the country, the CPP gained 41.4 percent of 
the popular vote with FUNCINPEC receiving 31.7 percent and the Sam 
Rainsy Party 14.4 percent. The relatively high figure for the CPP can 
be explained in part by the Cambodian people's desire for an end to 
political conflict and consequent improvement of their economic 
conditions, a sentiment that translates into a disinclination to risk 
activity that could be construed as ``against the regime''. Yet, 
paradoxically, many Cambodians have not been cowed. Thousands of people 
from the provinces have dared to demonstrate in Phnom Penh's streets in 
recent weeks in an unprecedented expression of disapproval of the Hun 
Sen regime.
    The international consensus in support of the Cambodia peace 
process, pluralism and respect for human rights has carried significant 
political weight, especially from 1991 through 1993. In 1997-1998, the 
``Friends of Cambodia'' group and the ASEAN ``troika'' of Thailand, the 
Philippines, and Indonesia played essential roles in brokering the 
return of National Assembly deputies from FUNCINPEC and other 
opposition parties to Phnom Penh and in mitigating some aspects of Hun 
Sen's repressive measures after the coup. Several countries (and the 
United Nations) have helped calm the political frenzy following the 
July 1998 election.
    During the past several years we have seen an erosion of the 
international community's consensus on Cambodia. Some ASEAN member 
states have one-party political systems; others display little interest 
in the human rights aspects of the Paris Agreements. The governments of 
the Southeast Asia countries and Japan are now far more concerned with 
their own economic problems than with Cambodia. Compassion fatigue 
among economic assistance donors has set in. In the eyes of Cambodia's 
neighbors and indeed of most signatories to the Paris Agreements, the 
political situation in Phnom Penh is a nasty, internal struggle. The 
important thing for outsiders is to prevent any disruptive regional 
expression of this struggle. This attitude is demonstrated by the 
statement from the head of the European Community's observer delegation 
for the July 1998 elections that ``despite shortcomings in the post-
election period, the elections were sufficiently free and fair to 
reflect the will of the Cambodian people''. Similar views have been 
expressed by observer delegations from Australia, Canada, and Japan, 
albeit with strong minority dissenting opinions. In the past, these 
countries were the strongest supporters of the common effort to promote 
political pluralism and respect for human rights in Cambodia.
    In practical terms, this means that the United States must bear 
most of the burden in promoting a workable solution that protects 
Cambodia's fledgling democratic spirit and human rights, and which 
encourages the development of a civil society. Consideration by other 
members of the international community of human rights and 
participatory governance will be tempered by pragmatic recognition of 
Cambodia's enduring autocratic political tendencies. For most, the 
``stability'' of Cambodia is more important than the character of its 
government.
Recommendations for United States Policy
    In Asia, Cambodia is less important to American national interests 
than, for example, the future of the Japanese economy, North Korea, and 
Indonesia. Nonetheless, we have a commitment to the Cambodian people 
and a responsibility under the Paris Agreements.
    1. Leadership. We should continue to work closely with our friends 
in ASEAN, Japan, Australia, Canada, and France, despite differences in 
perspective regarding the validity of the July 1998 elections, to find 
ways to move Hun Sen and the CPP toward an acceptance of the opposition 
as legitimate players in Cambodia's politics. While the extent to which 
ASEAN is willing to modify Hun Sen's script is limited, ASEAN clearly 
has an interest in preventing Cambodia from becoming a ``rogue state'' 
for narcotics trafficking or to otherwise disrupt the region. In this 
sense, ASEAN cannot run away and hide. At a minimum the United States 
should seek common action by ASEAN and United Nations agencies in 
pressing for investigations into charges of vote counting fraud and in 
investigating the use of force in quelling the post-election 
demonstrations. ASEAN has already indicated that Cambodia's membership 
in the group is on hold for the time being. The United States should 
encourage ASEAN to maintain that position.
    2. Support the Cambodian nongovernmental organizations. Despite a 
zero sum, politically intolerant climate, in 1993 Cambodians seemed to 
accept the basic concepts of the democratic process as embodied in the 
UN-sponsored elections. The surprise victory of FUNCINPEC demonstrated 
the attractiveness of open elections to rural Cambodians (80 percent of 
the population) as well as their resentment of the status quo. One of 
the important legacies of the U.N. presence was the growth of mass 
participation in human rights organizations and indigenous NGOs.
    NGOs were also a positive influence in the 1998 election. The 
indigenous poll-watching organizations of COMFREL and COFFEL, 40,000 
persons strong, demonstrated the determination of many Cambodians to 
participate in their political process, even at serious personal risk. 
Except for the Philippines, no other nation in Southeast Asia has 
developed such a pattern of citizen political participation. Although 
jeopardized by the July 1997 coup and the political climate after the 
1998 elections, NGOs retain links with the international community. But 
they remain fragile elements of Cambodian society, and the CPP, which 
is opposed to change, probably sees them a threatening forces. 
Nonetheless, these microscopic signs of civil society can provide a 
foundation on which U.S. and other international assistance programs 
can build.
    USAID support for humanitarian programs of The Asia Foundation and 
other NGOs with long involvement in Cambodia should be continued and 
expanded to its previous broader scope. At some point, assuming a 
political accommodation, development assistance to certain parts of the 
Cambodian government (e.g. Ministry of Education) should also be 
considered. It will be necessary to convince the government that the 
NGO sector is a positive, non-threatening element of a civil society 
that benefits the Cambodian people.
    3. Stay involved. The critical issue at the moment of this hearing 
is the degree to which the election complaints of FUNCINPEC and the Sam 
Rainsy Party can be satisfied in a manner which gives them fair 
representation either in a coalition government or as an opposition 
bloc within the National Assembly free of harassment and coercion. 
These are rapidly changing tactical matters currently under intense 
negotiation. In principle, in addition to the actions suggested above, 
the United States must stimulate common diplomatic pressure on the Hun 
Sen regime; seek broader cooperation at the United Nations; demand the 
continuation of the U.N. Center for Human Rights in Phnom Penh; and use 
conditionality in the World Bank, UNDP, and other international 
financial institutions when financial support to the Cambodian 
government is up for consideration. The United States must be an 
advocate within the international community for the vigorous use of all 
these tools--no other nation has a genuine commitment to performing 
such a function nor the political muscle to pursue it.
    The United States deals with many governments that engage in 
heinous violations of human rights and repression of democratic 
institutions. Some observers have suggested that the United States 
refuse to deal with Hun Sen in an interim regime, or with whatever Hun 
Sen-dominated regime is likely to emerge over the next few weeks. I 
believe this would be an extremely bad policy decision. The American 
Embassy in Phnom Penh is still accredited to the Royal Kingdom of 
Cambodia, regardless of the Hun Sen government's repressive record. To 
break that relationship would remove whatever ability the United States 
has to affect the course of events through dialogue with members of the 
CPP who may be less than enthusiastic about Hun Sen's autocratic rule. 
We would no longer be able to support indigenous NGOs. Finally, I would 
point out that even if the opposition were to become the dominant group 
in a coalition with the CPP, they would still have to reply almost 
exclusively on a government apparatus--police, military, civil 
administration from province down to local communes--staffed by CPP 
adherents.
    The United States Congress has rightly condemned the Hun Sen regime 
for human rights abuses and contravention of the Paris Agreements. I 
understand the political utility of such an expression of Congressional 
views in a situation like Cambodia today. Yet, in my view, we should 
not delude ourselves into believing that statements of disapproval and 
threats will necessarily moderate the actions of the regime. The United 
States seems to have become the conscience of the international 
community. But we should not exaggerate our ability to bring about the 
kind of political and social change we would like to see in Cambodia, 
particularly in the absence of a genuine wish on the part of the 
Cambodian political elites for compromise and reconciliation.

    Senator Thomas. OK. Thank you very much. And thanks to all 
of you for participating and for your views.
    What would be involved, Professor Brown, with--how would 
the acceptance of the opposition as legitimate players play 
out? What would be the role as you see it?
    Mr. Brown.If the opposition actually forms a coalition as 
part of the government, then certainly several cabinet- level 
posts would have to be given to FUNCINPEC.
    Also, there would have to be an accommodation with regard 
to the leadership at province level. I do not know how that 
would work out specifically, but certainly it would be improper 
to have all the province chiefs and the deputy province 
Governors affiliated uniquely with the CPP. Certainly those 
would be two things.
    Senator Thomas. How do you feel that the coalition 
arrangement under the 1994 election worked out?
    Mr. Brown.The 1993 election?
    Senator Thomas. 1993.
    Mr. Brown.Not very well, as it turned out. For the first 
year, it worked adequately well, I would say, in the situation 
in Cambodia immediately after the UNTAC period. Then it 
disintegrated. And part of the disintegration, of course, was 
that not only the CPP, but also the FUNCINPEC, were unable to 
accommodate the presence of Sam Rainsy as minister of finance 
and development. Then the situation deteriorated after that, 
admittedly, into a very bad situation.
    Senator Thomas. Dr. Tith, one of your views is to instruct 
the State Department not to put pressure on the opposition to 
enter into a coalition.
    Dr. Tith. Yes, sir.
    Senator Thomas. Do you have something of a different point 
of view?
    Dr. Tith. Yes, sir. The main reason for that is that, first 
of all, I view a coalition in a really democratic system as to 
be freely agreed upon. And I do not see under the circumstances 
how this coalition could be that kind of freely agreed type of 
coalition. That is one reason.
    The second reason is that I see at the present time, as an 
economist looking and particularly dealing with economic 
management of more than 100 countries, I can tell you that Hun 
Sen does not have the skill nor the commitment to manage the 
economy.
    The economy is really at the point of no return because of 
the deforestation. So if the coalition is formed, Hun Sen can 
only use their position to blame, because he has already blamed 
the opposition. As a matter of fact, he was interview the other 
day. Why did he not take care of the starvation issue which has 
started in Cambodia, some provinces in Cambodia? He said that 
because he blamed the opposition because they have 
demonstrated. So it would waste his time to deal with this sort 
of issue.
    So to me, if you want to have really any kind of solution 
down the road, is not to allow Hun Sen to deal with this 
problem. And you can see clearly who Hun Sen is. And he will 
not be able to manage the economy. It is simply that his base 
is management on corruption and on a loyalty which is based on 
purely on favor distribution.
    There is no difference between CPP and the government in 
Hun Sen. So you have, first of all, this kind of situation. How 
could you manage the economy when it is not based on 
meritocracy?
    Senator Thomas. If you did not move toward a coalition to 
govern, then what is your solution to the dilemma that now 
exists?
    Dr. Tith. To me, it seems to me that if the opposition 
should play the role of opposition, there is a constitutional 
crisis in the sense that because there is a two-third majority 
required--this is of Hun Sen's making, by the way. He is the 
one making that rule, because he wanted to corner the 
opposition when he was the minority.
    We can resolve that sort of thing, I think, through 
negotiation, by, let us say, a simple majority, go back to 
simple majority. The opposition can vote for that simple 
majority and let Hun Sen run the government, and the opposition 
remain in the opposition, constructive opposition. That is my 
idea about how can we proceed.
    Senator Thomas. It is my understanding, under the 
circumstances, there are now, absent this coalition majority, 
that there is basically no government that is legitimate.
    Dr. Tith. Well, if it is a simple majority----
    Senator Thomas. But it is not, is not? How would that come 
about?
    Dr. Tith. Well, the constitution has to change.
    Senator Thomas. Dr. Brown mentioned, Mr. Craner, pressing 
for an investigation into charges of vote fraud and 
investigation of the use of forces. I presume you would agree 
to that generally.
    Mr. Craner. Yes, I would.
    Senator Thomas. So what if you determined, what if there is 
determined, there was vote fraud and so on? Then what happens?
    Mr. Craner. In other countries that IRI has observed, if 
there were cases of vote fraud, the elections at that 
particular ballot place or in that particular province are 
rerun.
    Senator Thomas. OK. Would that happen here? Is there a 
constitutional and a legal framework, assuming those 
allegations were proved, would that require another election?
    Mr. Craner. On paper there are such provisions.
    Senator Thomas. Yes. That is what I mean. So you go ahead 
and do the investigation, Dr. Brown. You find there is fraud. 
So what?
    Mr. Brown.Well, as I understand it, there are at least 800 
complaints registered by the Sam Rainsy party and FUNCINPEC. I 
am given to believe that of those 800, the estimate of the 
administration is that many of them would not materially change 
the outcome of the election in the individual location.
    I doubt very much you could investigate all 800 in any kind 
of reasonable timeframe. But it seems to me there ought to be a 
process by which some of those charges which appear to be the 
most serious could be investigated by the National Election 
Commission, which did not really do its job entirely after the 
election, or through some other international mechanism.
    Senator Thomas. I guess my question is, assuming they found 
that there is this kind of--and the International Elections 
Commission says, so what? What happens?
    Mr. Brown.Well, if it appears that an election in a given 
province or in a given location did change the outcome with 
regard to who was elected from that location, then the national 
assembly composition would have to be adjusted accordingly, I 
suppose, so that the balance between FUNCINPEC, the Sam Rainsy 
party and CPP would change.
    Senator Thomas. And you know about it more than I. But it 
seems like we are assuming that their laws are similar, for 
instance, to ours, where there is a constitutional provision to 
change and a structure, a legal structure, to cause it to 
happen. And I suspect that is not the case.
    Mr. Brown.That could very well be that it would not happen. 
But there has to be a serious investigation made and put on the 
record.
    Senator Thomas. I understand. What is--you know, in 
elections anywhere, when you have more than two parties, it 
tends to divide the vote. Is there generally agreement among 
the two minority groups here on issues and so on? Why did they 
have two separate elections instead of coming together to win 
the majority that they now have jointly? Why did they not do 
that together?
    Dr. Tith. You mean in talking about FUNCINPEC and Sam 
Rainsy party?
    Senator Thomas. Yes.
    Dr. Tith. Well, if you observed in Germany or observed in 
any other country, when there are two parties that can get 
together and form a majority, if it is a majority, then they 
can run the country in the simple majority basis.
    Senator Thomas. In a parliamentary system.
    Dr. Tith. In a parliamentary system, yes. But this is the 
problem, that Hun Sen change the formula, you see. Although the 
popular vote, Hun Sen got only 41.5 percent, opposition got 58 
percent, and this is why it is not representative of the vote 
of the people.
    But the seat, because of the formula, Hun Sen has 64 seats 
out of 122. It does not make any sense. Arithmetic does not add 
up. It does not retranslate into the majority in the parliament 
for the opposition, which it should.
    Senator Thomas. But it takes two-thirds, did you not say, 
in the parliament?
    Dr. Tith. Two-thirds, yes. That two-third is the rule right 
now for any major issues.
    Senator Thomas. So in any parliamentary arrangement you 
need to get together to get two-thirds, and that is the case 
here. You would not even have two-thirds if the two minority 
parties got together, is that correct?
    Dr. Tith. They will not get two-thirds. But that is why I 
said I propose that the two-thirds majority should change first 
to make it a simple majority, and then we proceed from there. 
Because that two-thirds majority was an imposition by Hun Sen.
    Senator Thomas. I understand that, but I guess I keep 
coming back to here is where are.
    Dr. Tith. Yes.
    Senator Thomas. That is where you would like to see us be, 
but that is not where we are at.
    Dr. Tith. Right.
    Senator Thomas. Yes, sir?
    Mr. Craner. I think there is an assumption on the part of 
some that had the two opposition parties joined together, they 
would be sitting at the head of government today. But history 
is instructive. They won in 1993, not with 60 percent of the 
vote, but 66 percent of the vote against Hun Sen.
    When Hun Sen saw that, he took his army off to the 
provinces and said, I am going to split this country if you do 
not share power.
    So it is not at all clear that had they joined together, 
and won 60 or 66 or whatever percentage of the vote, that Hun 
Sen would have said: Oh, you won. I understand. I am a good 
democrat.
    Senator Thomas. Understand. Well, generally, I guess we 
could assume that at least the two of you, Mr. Craner and Dr. 
Tith, take a little stronger position than the administration 
is inclined to.
    Dr. Brown, I think you sort of endorse the administration's 
position. Is that generally fair?
    Dr. Brown; In the absence of a viable alternative, I would 
have to endorse it. Yes.
    Senator Thomas. You know--and just let me observe. And you, 
again, are experts in this, but it is difficult, it seems to 
me, for our policy to have the right balance. In other words, 
some argue, well, you know, we ought to continue to work with 
the country. We ought to continue to participate with aid and 
so on in hopes that that is the best way to bring about change.
    On the other hand, others argue, by golly, why should we 
assist in something that is inconsistent with our values. It 
seems like that is kind of where we are a little bit in this 
arrangement. Would you argue with that?
    Mr. Brown.I would comment only as I have done in my 
testimony that there are elements in Cambodian society that are 
very much interested in developing a civil society and the rule 
of law and respect for human rights.
    Democracy is a very difficult term to use with regard to 
Cambodia, but there are people in Cambodia, people that we have 
helped and supported. And to simply let them drop, it seems to 
me, would be criminal on our part.
    Now you have to work within the context that is, as you 
say. And----
    Senator Thomas. I do not think anyone would suggest that. I 
guess the real issue before us, not only in Cambodia and other 
places, how do we best accomplish that? That is the problem 
with China. The same thing.
    Gentlemen, thank you very much. I appreciate it. A letter 
from Prince Ranariddh and a statement from Sam Rainsy will be 
made part of the record.
    [The information referred to follows:]

    Statement Submitted by Sam Rainsy, President, Sam Rainsy Party, 
                                Cambodia

    Mr. Chairman, it is a distinct and unique pleasure for me to appear 
before you today. I am honored to inform this Subcommittee of the 
political situation in Cambodia following the July parliamentary 
elections and to highlight the important role the United States can 
play in bringing democracy, the rule of law, and lasting peace to my 
country.
    The last few months, weeks, and days have been among the most 
difficult of my life, and it has been equally trying for all Cambodians 
who support democracy. I know this Subcommittee is familiar with the 
brutal crackdown of pro-democracy demonstrators in Phnom Penh by forces 
of the Cambodian People's Party (CPP). Buddhist monks and students have 
been found tortured and murdered, and many continue to be missing. I 
know you are familiar with the illegal and unconstitutional travel ban 
that prevented me and all opposition members from leaving Cambodia one 
week ago--a ban that was personally instituted by Hun Sen. And I know 
that you are aware of the CPP-biased election machinery that denied 
opposition parties due process in the counting of ballots and 
resolution of election complaints.
    There is no one more disappointed and saddened by the total failure 
of the July elections than myself. However, the opposition in Cambodia 
warned from the very beginning that democracy cannot be built on an 
undemocratic foundation that lacks the rule of law. Throughout the 
electoral process--even before we returned to Phnom Penh from exile in 
Bangkok--we pointed out to the international community many serious 
flaws in the political environment and in election preparations. For 
example, our party structures and property had been totally destroyed 
or looted during Hun Sen's July 1997 coup d'etat, and our membership 
was traumatized. I could not agree more with the characterization of 
the pre-election period as ``fundamentally flawed.''
    Mr. Chairman, we were reluctant participants in this election and 
at one point even withdrew from the process. But under heavy pressure, 
we accepted the assurances of the international community that the 
elections would be assessed fairly. We were wrong in accepting these 
assurances, and today Cambodia is on the brink of affirming the rule of 
man, not instituting the rule of law. I know this to be true, as I 
spent ten days under the protection of the United Nations in Phnom Penh 
because of Hun Sen's pointed threats.
    The United Nations and many other sponsors and observers of the 
election did not effectively challenge the conditions that made a fair 
election impossible. Throughout the campaign, our activists were 
harassed, threatened, and killed with complete impunity. While the 
United Nations has done a commendable job in documenting the abuses of 
the Cambodian government, not one human rights violator has been 
prosecuted. And the killings and torture continue.
    Other shortfalls in the elections included limited and unequal 
access to state controlled media, an election framework that was biased 
and that lacked transparency, a recounting process that failed to 
conduct recounts, a reluctance to reconcile all ballots, and an illegal 
change in the method for seat allocation that gave the ruling party a 
majority of seats with only 41 per cent of the official vote.
    The burden of proof that this election was legitimate no longer 
lies with the opposition--as some asserted immediately after the polls 
closed--it is now the responsibility of Hun Sen and the CPP.
    The Cambodian people are confused, frustrated and angry. They don't 
understand why many in the international community are supporting the 
announced election results and pressuring the opposition to join a 
coalition. Why isn't the Cambodian government pressured into obeying 
Cambodian laws and its Constitution?
    If the opposition is forced into a coalition without being able to 
resolve underlying problems, Cambodia will continue to be under the 
complete control of Hun Sen. History has shown that he will do whatever 
it takes to stay in power. Over the past five years, under Hun Sen's 
leadership, Cambodia has had unrestrained corruption, human rights 
violations, and environmental destruction. He kept his political 
opposition in check while building up his own political and military 
machine, in part, by making deals with some of the worst Khmer Rouge 
leaders and incorporating them into the government. Anyone who thought 
Hun Sen was the solution to Cambodia's problems or that heoffered 
``stability'' should know better by now.
    I understand all of Cambodia's problem cannot be solved at once, 
and the opposition has demonstrated its willingness to compromise. 
However, there are some issues where compromise is impossible, such as 
the resolution of election related disputes before a coalition 
government is formed and the development of an independent judiciary 
that enforces and protects the rights of all citizens, not only members 
of the CPP.
    Without proper and full resolution of election complaints, the 
elections will have no credibility among the Cambodian people. For 
better or for worse, the Cambodian people look to the United States as 
the standard-bearer of democracy and the conscience of the world. It 
was the United States that took Hun Sen's coup seriously last year and 
the U. S. Congress that acted so swiftly to restrict official foreign 
assistance to Cambodia. The reaction of Congress was one of the few 
times that Hun Sen has received a message from the international 
community other than one of accommodation.
    Hun Sen expects that the world will legitimize his rule through 
these elections and cloak his dictatorial behavior in the mantle of 
democracy. Cambodian democrats are asking the United States to be the 
standard-bearer again while there is still a chance to get Cambodia 
back on the road to democracy. We call upon the United States to:

  <bullet> make it clear that it will refuse to recognize any Cambodian 
        government that is formed prior to the resolution of election-
        related complaints filed by opposition parties, or any 
        government formed under duress;
  <bullet> strongly condemn the Cambodian government for its human 
        rights abuses and ongoing intimidation of opposition activists;
  <bullet> continue to withhold official aid, as it is currently doing, 
        and to oppose IMF and other multilateral lending. Let me make 
        clear that humanitarian and demining assistance should 
        continue;
  <bullet> vote to keep Cambodia's U.N. seat vacant and to oppose other 
        international recognition;
  <bullet> leave the U.S. ambassador's post vacant after the departure 
        of Ambassador Kenneth Quinn until a credible government is 
        formed and to ensure that next U.S. ambassador is someone with 
        strong credentials as a supporter of democrats;
  <bullet> intensify efforts to deter the Cambodian government's role 
        in illegal logging, drug-trafficking, money-laundering and acts 
        of terrorism such as the grenade attack on March 30, 1997 that 
        killed at least 16 people; and,
  <bullet> make public the Federal Bureau of Investigation's report 
        into the March 1997 grenade attack.

    Mr. Chairman, as a target of assassination in 1997 and again just a 
few weeks ago outside of the Ministry, of Interior, I know how 
dangerous Cambodian politics can be. The United States has an 
opportunity to make an historic contribution to Cambodia's future by 
demonstrating its leadership and supporting democracy and human rights. 
Today, I look to you for hope and assistance.
    Thank you for the opportunity to testify.
                               __________

              Letter Submitted by Prince Norodom Ranariddh

                                                     1 October 1998
Their Excellencies:
Senator Jesse Helms,
Chairman, Senate Committee on Foreign Relations;
Congressman Benjamin Gilman,
Chairman, House International Relations Committee;
Congressman Gerald Solomon,
Chairman, House Subcommittee on Asia and the Pacific;
Congressman Dana Rohrabacher,
Chairman, House Subcommittee on Space and Aeronautics.
    Your Excellencies, I am writing to express my gratitude for your 
efforts to support democracy and freedom for the people of Cambodia. 
During the past month, during a violent crackdown by Hun Sen on leaders 
of democratic parties, students and Buddhist monks, the consistent 
principled position of the U.S. Congress has saved the lives of 
countless people and has led the international community to endorse a 
non-violent political resolution of the current crisis. Unfortunately, 
an atmosphere of intimidation and the threat of violence by Hun Sen and 
his forces continues, with many pro-democracy advocates and Buddhist 
monks still missing. In addition, there has been inadequate movement by 
Hun Sen's political party to address serious charges of irregularities 
in the ballot process and the allocation of Parliamentary seats.
    I regret that I am unable to travel to the United States at this 
time because it is essential that I remain available to join in 
political talks in Phnom Penh and to provide direct leadership to the 
Members of Parliament of my party.
    However, I have requested that my colleague, the Honorable Sam 
Rainsy M.P., travel to Washington and to the United Nations to 
represent the coalition of our respective parties and a number of 
allied pro-democracy parties, who collectively totaled more than 51 
percent of the popular vote in the July election.
    We seek support of the U.S. Congress and the International 
community to assure that any coalition government that is formed in 
Cambodia is negotiated without force or coercion and represents the 
will of the Cambodian people. Before a coalition is formed, the 
credible charges of election irregularities must be investigated by 
non-biased entitles, and the constitutionality of the seat allocations 
dispute must be resolved. All threats of violence or arrest against the 
democratic opposition must be lifted and force must not be used against 
peaceful demonstrators and Buddhist monks. those who have committed 
torture and murder must be brought to justice. Most essential, in order 
to achieve a peaceful resolution of the crisis, Hun Sen must understand 
that he will be accountable by the international community for 
continued acts of violence.
    Thank you for your continued support for freedom and democracy in 
Cambodia. I look forward to meeting with Your Excellencies in the not 
too distant future.
    Please accept, Your Excellencies, the renewed assurances of my 
highest consideration and personal esteem.
                                 Norodom Ranariddh,
                              President of FUNCINPEC Party.
                               __________

        Statement Submitted by Human Rights Watch, Asia Division

                 human rights in post-election cambodia
    The U.S. government has played a critical role in the months 
leading up to, and following, this past July's election in Cambodia. 
Unfortunately, at this time, there is little reason to be optimistic 
about the short-term future, as the Cambodian government has failed to 
address the fundamental human rights problems that plagued the pre-
election period, including political violence, extra judicial killings, 
and official impunity for abuses. These same problems now threaten to 
undermine prospects that any new government can gain the full 
confidence and support of the Cambodian people.
    We believe that the international community was too hasty in 
endorsing both the elections process and the results as ``free and 
fair.'' The creation of yet another antagonistic coalition government 
between Prince Ranariddh and Hun Sen offers little hope of stability or 
human rights improvements.
    While polling day itself drew large numbers of voters and was 
relatively peaceful, most of the year preceding election day was 
tainted by political violence, widespread intimidation, monopoly of the 
broadcast media by the ruling party, and murders of opposition members 
and supporters of Ranariddh.
    Most of the international observer delegations flew in only days 
before the elections, gave their approval, and left as quickly as they 
came. Meanwhile, following the elections, hundreds of opposition 
activists fled their homes in the provinces after receiving threats of 
reprisals and death from local officials. In late August, unprecedented 
numbers of people took to the streets in Phnom Penh to protest the 
election results. Violence escalated, with a grenade attack at the 
Ministry of Interior on August 20 when Sam Rainsy was inside the 
compound. There were also mob killings of at least four ethnic 
Vietnamese on September 3 and 4 in conjunction with rumors that 
Vietnamese food vendors were poisoning the population.
    On September 7, more than a week of civil unrest erupted in Phnom 
Penh, and riot police used lethal force to disperse opposition 
demonstrators. The protesters were mostly peaceful, though some did 
engage in violence such as stone-throwing. Since September 7, two 
deaths have been confirmed and more than thirty are under investigation 
by human rights workers. At least sixty people were wounded in the 
demonstrations, including fourteen who were sent to the hospital with 
bullet wounds. In addition, security forces detained more than twenty 
people, including students and monks, and many more people were 
reported as missing.
U.S. Policy Recommendations:
    We urge the Clinton Administration, and members of this Committee, 
to insist upon concrete action by the Cambodian government--as outlined 
below--before the U.S. restores any bilateral or multilateral aid to 
Phnom Penh. We continue to strongly favor assistance to Cambodian NGOs, 
however.
    The U.S. should publicly and privately support the efforts of the 
U.N. Secretary General's Special Representative, Thomas Hammarberg, who 
has called on the Cambodian government to:

  <bullet> publicly acknowledge all instances of arrest and detention 
        in connection with the demonstrations earlier this month;
  <bullet> make known the names of all detainees and their whereabouts, 
        and any charges against them; in the absence of credible 
        charges, they should be immediately released;
  <bullet> open all places of detention to the International Committee 
        of the Red Cross;
  <bullet> investigate and prosecute those responsible for 
        disappearances since the September 7 crackdown as well as those 
        that took place prior to the elections;
  <bullet> fully investigate and prosecute the apparent killings of at 
        least 16 people whose bodies have been found in recent weeks 
        floating in rivers, irrigation ditches and shallow graves 
        around Phnom Penh;
  <bullet> cease all threats to arrest and prosecute opposition 
        leaders, such as Sam Rainsy and Kem Sokha (former head of the 
        parliamentary human rights committee), for exercising their 
        rights of free speech and political participation.

    Until the Cambodian government demonstrates a willingness to begin 
taking these steps, the U.S. should continue withholding direct 
government aid and urge other donors to do the same.
    The U.S. should also help provide protection to courageous 
Cambodian NGOs, including human rights monitors, who are struggling to 
lay the groundwork for long term peaceful change. We are deeply 
concerned about police threats against the staff of the U.N. Centre for 
Human Rights in Phnom Penh.
    In addition, we believe it is crucial that the United Nations 
continue to maintain a visible presence in Cambodia during this 
transition period. It is likely that political violence, arrests and 
killings will continue, and perhaps even accelerate, once agreement is 
reached on the composition of a new government. Acts of retaliation and 
retribution have been all too common in Cambodia in the past.
    We hope the Administration will endorse the continuation of the 
mandate of the U.N. Secretary General's Personal Representative, Mr. 
Lakhan Mehrotra, as well as the mandate of the Cambodia Office of the 
High Commissioner for Human Rights (COHCHR)--which Second Prime 
Minister Hun Sen has repeatedly tried to shut down. The COHCHR is 
currently due to operate until March 1999. But in light of the commune 
level elections scheduled for sometime next year, and ongoing reports 
of abuses, it should be extended and if possible, additional funding 
provided for the staff to be expanded.
    Finally, we appreciate the efforts of the United States--in the 
face of general donor weariness or ``Cambodia fatigue''--to encourage 
ASEAN, members of the European Union, Japan, and other key donors to 
press for basic human rights improvements, which are clearly essential 
to bringing about reconciliation, stability, and long-term economic 
development in Cambodia. The statements of some ASEAN governments at 
the U.N. General Assembly in New York on September 28 were particularly 
encouraging, and it appears that Cambodia's ASEAN membership remains on 
hold until ASEAN is confident that a legitimate and stable government 
is in place. The U.S. and other donors should also continue to 
vigorously condemn violent attacks on ethnic Vietnamese living in 
Cambodia.
Human Rights Developments
    Hun Sen began to lay the groundwork for the 1998 elections in late 
1997 by sending a letter to U.N. Secretary-General Kofi Annan on 
October 22, guaranteeing the safe return of opposition politicians who 
fled after the coup and pledging to organize fair elections. By the end 
of November, the office of the United Nations Secretary-General's 
Representative in Cambodia (OSGRC) had created a new unit of 
international personnel, mandated to monitor the physical security and 
safety of returning political leaders, their freedom from arrest and 
detention, and their ability to engage in political activities. By 
early 1998, most had returned. These included Prince Ranariddh's party, 
Front Uni National pour un Cambodge Independent, Neutre, Pacifique, et 
Cooperatif, or FUNCINPEC; Sam Rainsy's Khmer Nation Party (KNP); and 
the Son Sann faction of the Buddhist Liberal Democratic Party (BLDP). 
Throughout the first half of the year, the CPP was virtually the only 
party able to freely and actively conduct political activities 
throughout the country. It was not until May that opposition parties 
were legally recognized and not until June that they were fully 
registered to participate in the election.
    Until mid-February, a political impasse over Prince Ranariddh's 
ability to participate in the elections threatened to block 
international donor support for the vote. Hun Sen charged that Prince 
Ranariddh had imported illegal weapons in 1997 and mounted an armed 
opposition with Khmer Rouge support against government forces. In 
February, however, a group of donor and neighboring countries known as 
the Friends of Cambodia endorsed a peace initiative put forward by 
Japan, and Hun Sen and Prince Ranariddh agreed. Dubbed the ``Four 
Pillars'' plan, it called for an immediate cease-fire and reintegration 
of resistance forces into the government army, the severing of by 
Prince Ranariddh's ties with the Khmer Rouge, the trial of Ranariddh in 
absentia followed by his pardon by King Sihanouk, and government 
guarantees of Prince Ranariddh's safe return to Cambodia.
    A pattern of violence against lower-level opposition party workers 
in remote areas of the countryside began to emerge early in the year, 
especially after activists in some provinces made tentative first steps 
to reactivate grassroots networks. A National Election Committee (NEC) 
was formed in January to organize and monitor the elections and verify 
the accuracy of the final tally, but it was dominated by the CPP. 
Similarly, the Constitutional Council, the nation's highest appeals 
body, which was mandated to resolve electoral disputes and verify the 
accuracy of the final tally, had a disproportionate number of CPP-
affiliated members and was established too late to address most 
election-related disputes. At party congresses in Phnom Penh in March, 
two leading opposition parties changed their names because of legal 
battles with pro-CPP rival factions. The KNP became the Sam Rainsy 
Party, and one faction of the BLDP became the Son Sann Party. During 
political party registration, which began on March 28, thirty-nine 
parties were approved by the Ministry of Interior and the NEC.
    March and April were characterized by a wave of political violence. 
High-ranking FUNCINPEC officials were targeted prior to Prince 
Ranariddh's return on March 30. General Thach Kim Sang was gunned down 
on a busy Phnom Penh street in broad daylight on March 4; Lt. Col. 
Moung Sameth was assassinated on March 3 in Kien Svay district near 
Phnom Penh, and Lt. Col. Chea Vutha, was killed on March 28 also in 
Kien Svay district. Local activists in the countryside were also 
targeted, as for example in the April 26 grenade attack against Son 
Sann Party members in Takeo, in which two people were killed.
    In April the CPP turned its attention to getting its members 
appointed to the provincial and commune election commissions and 
launched a heavy-handed but generally nonviolent party recruitment 
campaign. Local officials and militia went house to house or conducted 
mass meetings to solicit thumb prints and pledges from the populace to 
vote for the CPP, confiscated and recorded identification numbers on 
voter registration cards, and conducted ``mock elections'' before the 
actual polling, in which people were pressured to vote for the CPP. 
Although voter registration got off to a rocky start on May 18, the NEC 
reported that 92 percent of the estimated 5.6 million eligible voters 
eventually registered to vote.
    Top opposition leaders such as Prince Ranariddh and Rainsy began to 
make high-profile visits to the provinces in May, but the ongoing 
threat of political violence discouraged activity by local-level 
opposition members outside Phnom Penh. A May 13, 1998 memorandum from 
the Special Representative of the Secretary-General for Human Rights in 
Cambodia detailed forty-two killings and six long-term 
``disappearances'' of people presumed killed since the initial forty-
one killings that took place in the immediate aftermath of the July 
1997 coup. A U.N. report prepared in April concluded that the 
government had not launched any serious investigations into coup-
related abuses and that no investigations were planned.
    On June 8, the co-prime ministers signed a directive establishing a 
National Human Rights Committee. The fact that the committee was led by 
two top advisers to Hun Sen, and that this was the fourth time since 
July 1997 that Hun Sen had pledged to set up such a commission, did not 
inspire confidence that it was a serious effort. A National Task Force 
on Security for the Elections was established the same month, 
responsible for investigating election-related violence. Headed by 
National Police Chief Hok Lundy, himself linked to political murders, 
the task force concluded that all of the cases it received stemmed from 
personal motives such as revenge or robbery.
    In the final two months preceding the elections the Cambodia Office 
of the High Commissioner for Human Rights received more than four 
hundred allegations of voter intimidation, death threats, acts of 
violence against individuals, illegal arrests and detention, forced 
removal or destruction of party signs or shooting at party offices, 
coercion of voters to join the CPP, temporary confiscation of voter 
registration cards by local authorities, and barring of party members 
from access to communities. More than one hundred of the complaints 
were deemed credible.
    In the elections themselves, 94 percent of the registered voters 
turned out to vote, observed by the Joint International Observation 
Group (JIOG), a U.N.-coordinated body of thirty-seven countries. The 
JIOG dispatched only 250 pairs of observers to cover more than 11,000 
polling sites and 1,600 counting centers. Additional observation was 
handled by Cambodian observers under the auspices of well-respected 
electoral monitoring NGOs, such as the Committee for Free and Fair 
Elections (COMFREL) and the Coalition for Free and Fair Elections 
(COFFEL). Meanwhile, counting continued well into the third week in 
August.
    The JIOG issued its assessment that the voting was free and fair on 
July 27, before the counting was even completed. The Asian Network for 
Free Elections (ANFREL) was the only international observer delegation 
to avoid making a snap judgment, calling on the NEC on July 30 to 
investigate complaints of polling and counting irregularities as well 
as reports of widespread intimidation and threats against opposition 
party members following the elections.
    In preliminary results released by the NEC in August, the CPP was 
declared the winner, but the opposition rejected the results and 
demanded a recount. However, after cursory examination of only a 
fraction of the opposition's complaints, both the NEC and the 
Constitutional Council declared the appeals process closed. On 
September 1, the NEC announced the final results: the CPP received 
sixty-four of 122 National Assembly seats, or a slight majority, while 
FUNCINPEC got forty-three seats and the Sam Rainsy Party fifteen. The 
opposition refused to join a coalition government proposed by the CPP, 
which had not won enough seats for the two-thirds majority required to 
form the new government on its own. In late August the opposition 
launched three weeks of protest marches and rallies in Phnom Penh and 
set up a tent city in front of the National Assembly, which they called 
``Democracy Square.'' Unprecedented numbers of people took to the 
streets to call for Hun Sen to step down. Government officials declared 
that the demonstrations were illegal and threatened to arrest Sam 
Rainsy.
    Anti-Vietnamese sentiments flared in some of the demonstrations and 
rallies, with opposition politicians charging that Hun Sen and 
Vietnamese ``puppets'' were intent on eliminating the Cambodian people. 
On August 30, demonstrators attempted to destroy a stone memorial in 
``Democracy Square'' that commemorates Cambodia-Vietnam friendship, 
smashing it with hammers and setting it on fire. On September 3 and 4, 
at least four ethnic Vietnamese were killed in mob violence in Phnom 
Penh as a result of rumors than more than seventy people had died from 
contaminated palm wine that had been poisoned by Vietnamese people.
    Following a grenade attack on September 7 on Hun Sen's residence in 
Phnom Penh, government forces found a pretext to move against the 
demonstrators, opening fire outside the Cambodiana Hotel, where Sam 
Rainsy had taken refuge, killing one man and provoking widespread 
anger. Over the next week daily clashes broke out between riot police, 
pro-CPP demonstrators and opposition supporters. Bulldozers were 
brought in to destroy the tent city, and riot police used electric 
batons, fire hoses, rifle butts and bullets to disperse protesters 
around the city. At least two people were killed as a result of the 
unrest and human rights workers are investigating more than thirty 
suspicious deaths in and around Phnom Penh that occurred at the same 
time. Dozens more people, including monks, women, and students, were 
beaten or injured by government security forces, and more than twenty 
people were arrested. The government banned dozens of opposition 
politicians from leaving the country and threatened that some would be 
arrested.
    Under intense pressure from the international community and King 
Sihanouk, the opposition called off the demonstrations and began to 
make accommodations with Hun Sen. On September 22, the king hosted a 
meeting in Siem Reap between Hun Sen, Prince Ranariddh, and Rainsy. 
This facilitated the swearing in of the new National Assembly on 
September 24.
    Fundamental freedoms of association, assembly, and expression faced 
periodic threats during the year, although large numbers of people, 
sometimes tens of thousands, were able to gather for political rallies, 
labor demonstrations, and protest marches, and, for the most part, 
candidates were able to speak freely during the campaign. In the course 
of the crackdown on opposition supporters protesting the election 
results, however, the government issued a statement on September 9 that 
banned ``unauthorized gatherings,'' particularly those that might 
disrupt public order and security.
    Opposition parties had virtually no air time on broadcast media 
during the year, except for the thirty-day official campaign period, 
when NEC regulations provided for somewhat more equitable media access. 
Even during the campaign, however, the privately owned Apsara and Bayon 
stations continued to give disproportionate coverage in the first half 
of July to the CPP, which appeared 446 times, with FUNCINPEC appearing 
six times and the Sam Rainsy Party nine times.
    The court system remained virtually powerless in 1998, with the 
judiciary subject to political pressure. While no move was made against 
officials suspected of rights abuses, U.N. Secretary-General Kofi Annan 
in August announced the creation of a Commission of Experts to assess 
evidence of war crimes, genocide, and crimes against humanity committed 
by the Khmer Rouge under Pol Pot, who died on April 15, only days after 
the United States announced its intention to capture him and his top 
deputies and bring them to trial. Questions persisted as to the status 
of other ranking Khmer Rouge leaders who are still alive, including 
those who remain in hiding as well as more than a dozen influential 
Khmer Rouge who have defected to the government since 1996.
                               __________
    Senator Thomas. The meeting is adjourned.
    [Whereupon, at 11:35 a.m., the hearing was adjourned.]

                                    

      

</pre></body></html>
